<html>
<title> - FEDERAL BUREAU OF INVESTIGATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                    FEDERAL BUREAU OF INVESTIGATION

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2007

                               __________

                           Serial No. 110-86

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
37-010 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                             JULY 26, 2007

                                                                   Page

                           OPENING STATEMENTS

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     2

                               WITNESSES

The Honorable Robert S. Mueller, III, Director, Federal Bureau of 
  Investigation
  Oral Testimony.................................................     3
  Prepared Statement.............................................     7

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................    62
Prepared Statement of the Honorable Betty Sutton, a 
  Representative in Congress from the State of Ohio, and Member, 
  Committee on the Judiciary.....................................    73
Post-Hearing Questions posed by the Honorable John Conyers, Jr., 
  and the Honorable Luis V. Guiterrez to the Honorable Robert S. 
  Mueller, III, Director, Federal Bureau of Investigation........    74
Letter from Richard C. Powers, Assistant Director, Office of 
  Congressional Affairs, U.S. Department of Justice, Federal 
  Bureau of Investigation, dated November 13, 2007...............    84
Letter from Richard C. Powers, Assistant Director, Office of 
  Congressional Affairs, U.S. Department of Justice, Federal 
  Bureau of Investigation, dated December 19, 2007...............    85


                    FEDERAL BUREAU OF INVESTIGATION

                              ----------                              


                        THURSDAY, JULY 26, 2007

                          House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 1:35 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable John 
Conyers, Jr. (Chairman of the Committee) presiding.
    Present: Representatives Conyers, Nadler, Scott, Watt, 
Lofgren, Jackson Lee, Delahunt, Cohen, Sutton, Davis, Wasserman 
Schultz, Ellison, Smith, Sensenbrenner, Coble, Gallegly, 
Chabot, Lungren, Forbes, Feeney, Franks, and Gohmert.
    Staff present: Perry Apelbaum, Staff Director and Chief 
Counsel; Joseph Gibson, Minority Chief Counsel; Robert Reed, 
Majority Counsel; and Brandon Johns, Majority Staff Assistant.
    Mr. Conyers. Good afternoon. The Committee will come to 
order.
    Today's hearing is on the Federal Bureau of Investigation. 
And our sole witness today is Robert Mueller, III, Director of 
the Federal Bureau of Investigation, whom we welcome to the 
Committee hearing.
    The Federal Bureau of Investigation is the linchpin of the 
Nation's law enforcement efforts. We have granted the Bureau 
significant powers: the ability to initiate investigations, to 
conduct surveillance on our citizens, and to combat crime and, 
more recently, terrorism.
    And with those powers go responsibility and accountability 
to respect citizens' civil rights and civil liberties, to 
testify fully and forthrightly to Congress.
    There are thousands of men and women in the FBI who put 
their lives on the line for us every day, while doing their 
utmost to ensure the rights of the people are fully respected.
    It is a difficult balancing act, and the FBI's history is 
replete with instances where the Bureau has crossed the line, 
and sometimes that abuse has risen to the very top.
    We saw it going back in history with the notorious 
COINTELPRO investigation into political activities in the 
1950's and 1960's. We saw it when the FBI saw fit to wiretap 
and harass Martin Luther King, Jr., and the files of groups 
such as the NAACP.
    It is no understatement to say that the shadow of J. Edgar 
Hoover still haunts the Federal Bureau of Investigation.
    The stakes are even higher today than they were then, 
because after the tragedy of September 11, Congress passed new 
laws transferring even greater powers to the Federal Bureau of 
Investigation under the PATRIOT Act. At the same time, the 
Department relaxed regulations that had been in place for 
decades to check the FBI's powers. We also granted the Bureau 
significant funding increases.
    Now, the FBI has had notable successes, and under Mr. 
Mueller's leadership has been able to begin the process of 
modernizing and retooling itself.
    This week, they seized more than $500 million worth of 
counterfeited goods in China.
    The Bureau has also had some unfortunate failures, that 
include the so-called National Security Letter program. And 
several months ago, we learned that FBI agents had routinely 
used national security letters without proper authorization and 
outside of statutory and regulatory requirements.
    We learned of the FBI misuse of so-called exigent letters 
in nonemergency situations. In other words, the FBI claimed 
that there was an emergency simply to bypass the national 
security letter requirements.
    Five months later, I have yet to learn of a single FBI 
agent or employee being disciplined. Five months later, we have 
no concrete guarantees that this won't happen again. Five 
months later, we still have no reform of the whistleblower 
process.
    We all appreciate the need for increased powers to combat 
terrorism. We in Congress have the job of making sure that 
these powers are not abused. If they are, we have the further 
job of reining in those powers as appropriate, by oversight 
and, if necessary, by statute.
    And so it is in that spirit that we are conducting this 
hearing. And I hope that we will be able to work cooperatively 
with this Director and head of the FBI to ensure that we are 
striking that difficult and proper balance between security and 
liberty.
    I am pleased now to recognize Lamar Smith, the Ranking 
Member of the Judiciary Committee, from Texas, for his opening 
comments.
    Mr. Smith. Thank you, Mr. Chairman.
    Like you, Mr. Chairman, I welcome today's witness, Director 
Mueller. And I want to thank him for his dedication and 
commitment to the mission of the FBI, which plays such an 
integral role in protecting the lives of the American people.
    Certainly Director Mueller deserves credit for his efforts 
to successfully prevent another terrorist attack since 9/11. 
The FBI recently has thwarted two intended terrorist attacks: 
one at Fort Dix Army Base and one at JFK International Airport.
    As the recent National Intelligence Estimate has indicated, 
though, our Nation is still at risk. We must continue to wage 
the war against terrorism at home and abroad.
    On another subject, last March the Committee reviewed the 
Inspector General's audit of the FBI's use of national security 
letters. In that audit, the I.G. raised concerns regarding the 
FBI's use of such letters. The problem was with enforcement of 
the law, not the law itself.
    The FBI has conducted an internal audit of NSL files, 
prepared and dispersed specific guidelines for the use of NSL 
authority to its 56 field offices, and established an Office of 
Compliance to ensure that its practices adhere to Federal laws 
and regulations.
    A few days ago, the Justice Department and the FBI 
announced new measures to enhance national security oversight 
and compliance.
    DOJ created a dedicated Oversight Section within the 
National Security Division. The FBI created a new Office of 
Integrity and Compliance.
    These new oversight programs will help ensure that national 
security investigations are conducted in a manner consistent 
with the Nation's laws, regulations, and policies, including 
those designed to protect the privacy interests and civil 
liberties of U.S. citizens.
    It is worthwhile to remember that no evidence suggests that 
anyone at the FBI intended to violate the law or internal 
policy governing use of NSLs.
    FBI agents acted in good faith and sought to comply with 
the law, even as they worked under severe time constraints and 
with an urgent desire to stop terrorist activities.
    As the Inspector General reported, NSLs are a critical tool 
in fighting terrorism and keeping our country safe. To do their 
job, the FBI must collect important information about suspected 
terrorists and spies.
    The FBI has combated terrorism while continuing to fight 
against other more traditional forms of crime, such as gang 
violence, white-collar fraud schemes, cyber-crime, child 
pornography, drug trafficking, and intellectual property crime, 
too.
    Director Mueller, thank you for all the good work that the 
FBI has done for all good Americans. I appreciate your being 
here.
    Mr. Conyers. Thank you, Mr. Smith.
    Robert Mueller III, Director of the Federal Bureau of 
Investigation, has held his post since September 4, 2001. He 
has a long and distinguished career in public service. Between 
Princeton and University of Virginia Law School, he served as 
an officer in the Marines and was heavily decorated.
    He has been an Assistant United States Attorney in San 
Francisco, in Boston, and in Washington, DC. He served as 
Assistant Attorney General for the Criminal Division in the 
early 1990's. And he returned to San Francisco in 1998 as 
United States Attorney.
    In between that, he has managed two stints in private 
practice as a partner at two prominent Boston firms. He was 
called back from San Francisco to Washington in early 2001 to 
be Acting Deputy Attorney General, where he served until 
assuming his current post.
    We have his statement, which will be included in the 
record, and we welcome him to proceed with his commentary.

 STATEMENT OF THE HONORABLE ROBERT S. MUELLER, III, DIRECTOR, 
                FEDERAL BUREAU OF INVESTIGATION

    Mr. Mueller. Thank you, Chairman Conyers, Representative 
Smith and other Members of the Committee. Thank you for having 
me here today.
    When I was sworn in nearly 6 years ago, we were keenly 
aware not only of the successes of the Bureau, but also of the 
need to address a number of management and administrative 
challenges facing the Bureau.
    The terrorist attacks of September 11, coupled with 
emerging terrorist and criminal threats brought on by 
globalization and advances in technology, required far more 
changes than we ever anticipated prior to September 11.
    Today, the FBI is a stronger organization, committed to 
protecting the American people from both terrorism and 
traditional crime, while upholding the Constitution and 
protecting civil liberties.
    Today, I want to give you a brief sense of the FBI's 
current priorities, the changes we have made to meet our 
mission, and some of the challenges we are facing.
    After September 11, the FBI's priorities shifted 
dramatically. Today, our top three priorities--
counterterrorism, counterintelligence, and cybersecurity--
relate to the national security. And to that end, we have made 
a number of changes in the Bureau, both in structure and in the 
way we do business.
    The FBI's top priority is, and will continue to be, the 
prevention of another terrorist attack.
    Since September 11, we have made significant progress and 
had notable successes in the war against terror. We have 
doubled the number of intelligence analysts on board and 
tripled the number of linguists. We have set up field 
intelligence groups in each of our 56 field offices, tripled 
the number of joint terrorism task forces from 33 to over 100, 
in which we combine the resources and expertise of the FBI, the 
intelligence community, and State and local law enforcement 
officers.
    And today, intelligence is woven through every FBI program 
and every operation. And as has been pointed out, we have 
successfully broken-up terrorist plots across the country; 
whether it be Lackawanna, New York; Portland, Oregon; Torrance, 
California; Chicago; and recently the potential attacks on Fort 
Dix and the JFK plot.
    Our second priority is counterintelligence, protecting our 
Nation's most sensitive secrets from those who would do us harm 
and who would strike at our economic well-being. We reach out 
to businesses and universities, we join forces with other 
intelligence community members, and we work closely with the 
military and others to safeguard our secrets.
    Our third priority in the post-9/11 world is the ever-
evolving cybercrime threat. Our foreign adversaries and 
competitors can remotely observe, target, acquire and exploit 
our information to their advantage. Terrorists now recruit, 
train and plan attacks on the Internet.
    Sexual predators prowl chat rooms for young victims. Spies 
sell intellectual property and state secrets to the highest 
bidder. Hackers who used to shut down servers around the world 
for bragging rights may now be linked to criminal and terrorist 
organizations. Many traditional crimes, from money laundering 
and fraud, to identity theft and organized crime, have migrated 
online.
    The FBI's Cyber Division, created 5 years ago, uses highly 
trained investigators to address these threats. And we 
effectively partner with government and industry through our 
sponsorship of InfraGard, a public and private alliance of over 
20,000 individual members.
    And while Americans are justifiably concerned about 
terrorism, it is crime in their communities that often directly 
touches their lives. With limited resources, the FBI must 
target those criminal threats against which we have the most 
substantial and lasting impact. And I want to emphasize five 
areas.
    First, public corruption. In the past 2 years alone, we 
have convicted over 1,500 Federal, State, and local officials 
and recovered hundreds of millions in fines and restitution.
    Civil rights: In recent years, we have expanded our civil 
rights program beyond police brutality and hate crimes to 
include the Civil Rights Cold Case Initiative and human 
trafficking issues.
    Transnational organized crime continues to evolve with 
advances in globalization and technology. And we will continue 
our international commitments to this threat.
    White-collar crime, including corporate, securities, 
commodities, investment, mortgage, and health care fraud, 
continue to adversely affect our Nation's economy and 
contributes to a number of victims. And we will continue our 
efforts to maintain public confidence in our country's economic 
institutions.
    Another area I might mention is our hurricane fraud 
initiative, addressing contract and procurement fraud in the 
Gulf Coast region in the aftermath of Hurricanes Katrina and 
Rita.
    Violent crime, especially violent gangs: Gangs are a 
nationwide plague no longer limited to our largest cities. The 
FBI works to combat this pervasive threat through our Safe 
Streets task forces, which have grown nearly three-fold since 
2001.
    And we are combating violent crime through other 
partnerships and task forces. Some of our Safe Streets and Safe 
Trails task forces are dedicated to other violent crime, from 
kidnappings to extortions to major interstate theft to assaults 
and murder in Indian country.
    Finally, let me conclude by bringing you up to date on two 
issues about which I know you have particular concern, one of 
which has already been mentioned, and that is national security 
letters.
    In response to the Department of Justice inspector 
general's report concerning our use of national security 
letters, the Bureau is in the process of implementing numerous 
reforms on which, I believe, your staff members have been 
continuously briefed.
    These reforms will ensure that we comply fully with both 
the letter and the spirit of the authorities entrusted to us.
    We are identifying and rectifying errors in our use of 
NSLs. We have changed the approval process to include review of 
all NSL requests by FBI attorneys. We have and are retraining 
agents and supervisors on how and when to use NSLs.
    Within the FBI itself, we have established the Office of 
Integrity and Compliance, reporting directly to the FBI's 
deputy director. While many major corporations have compliance 
divisions, few, if any, government agencies have a department-
wide program to internally monitor compliance. And given the 
complex nature and important nature of our mission, as well as 
the number of rules and guidelines and laws to which we are 
subject, such a program is an imperative, and we have put it in 
place.
    And finally, to respond, Mr. Chairman, to one of your 
issues in terms of accountability, we are conducting an 
investigation with the Inspector General in the lead into the 
use of the exigent letters. And my expectation is, as a result 
of that investigation, we will take whatever steps are 
necessary to hold persons accountable. That investigation is 
pushing forward rapidly, but it is still ongoing.
    Second, in recent years, we have made major improvements to 
the FBI's outdated information technology systems. We have 
installed thousands of state-of-the-art computers and secure 
and global networks.
    We are also in the process of implementing Sentinel, to 
help the FBI manage information and provide enhanced 
information sharing, search and analytical capabilities. In 
June, we successfully implemented the first phase of Sentinel, 
and are currently working on the development and deployment of 
the next set of capabilities.
    Mr. Chairman, let me conclude by saying that the FBI was 
created nearly 100 years ago to address crime crossing State 
boundaries. The threats we now face are global, and technology 
is moving more quickly than any of us could have foreseen just 
10 years ago.
    We must continue to protect the security of our Nation, 
while upholding the civil rights guaranteed by the 
Constitution.
    When I speak to special agents upon their graduation from 
the FBI Academy, I remind each one that it is not enough to 
prevent foreign countries from stealing our secrets. We must 
prevent that from happening while still upholding the rule of 
law. It is not enough just to stop the terrorist. We must stop 
him while maintaining his civil liberties. It is not enough to 
catch the criminal. We must catch him while respecting his 
civil rights.
    Mr. Chairman, Representative Smith, and Members of the 
Committee, I appreciate the opportunity to testify this 
afternoon and look forward to answering your questions.
    [The prepared statement of Mr. Mueller follows:]

         Prepared Statement of the Honorable Robert S. Mueller

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Conyers. Thank you for your testimony, which will 
accompany your written statement.
    I wanted to begin with the anthrax investigation, which we 
can't get any information about, but yet the Senate apparently 
got a briefing on it. And we have Richard Hertling, Acting 
Assistant Attorney General, who wrote Congressman Rush Holt, 
saying that, ``We can't give you any information or a briefing 
in the House.''
    Is there any way we can overcome this difference of views?
    Mr. Mueller. I would be happy to discuss with the 
Department of Justice the possibility of providing some form of 
briefing with regard to what is happening in the anthrax 
investigation.
    It is an ongoing investigation, and, quite obviously, we 
have some concerns that the confidentiality be maintained.
    But in the meantime, I will discuss with the Department, a 
mechanism whereby we can give you a briefing as to what we are 
doing, the number of agents on the case, and some of the 
aspects of the case that would not compromise the ongoing 
investigation.
    Mr. Conyers. Thank you.
    Now, the national security letters. The Inspector General's 
report said that, of the 143,074 requests between 2003 and 2005 
involving information on U.S. citizens, most of them were 
presumably innocent.
    And there are those in the Congress that begin to question 
the continued giving of the FBI this broad NSL authority in 
light of the findings not only from the Inspector General's 
report but from the FBI's own internal audit that the Bureau 
has systemic difficulties in limiting national security letters 
to appropriate uses.
    Your comments, please.
    Mr. Mueller. First of all, let me say I absolutely 
understand the concern from the I.G.'s report.
    A couple of preliminary points to make, and that is that 
the Inspector General did not find any intentional activity or 
actions by FBI agents to circumvent and obtain records to which 
they were not entitled. And in almost every case, the FBI was 
entitled to the records that were obtained.
    One of the concerns I think is raised is the fact that 
there are so many and that they are U.S. citizens. And I would 
give perhaps a hypothetical that would explain the necessity 
for the use of that tool.
    We will, upon occasion, have investigations such as we had 
overseas these last few weeks where, in the United Kingdom, 
there were a couple of cars left outside a nightclub with the 
expectation they would explode. There was a terrorist attack in 
Scotland. And a year ago, if you will recall, there were a 
group of individuals in the United Kingdom who were arrested 
intending to bring on-board liquid explosives on a number of 
planes and blow them up.
    Either in international investigations or domestic 
investigations, we will find, in the course of those 
investigations, telephone numbers that they have utilized and 
been passed to us by British authorities, e-mail addresses, and 
other identifiers of communication.
    If we have individuals in the United States who are in 
contact with individuals who are part of a terrorist cell 
overseas, it is incumbent upon us to determine whether or not 
they are contacting people in the United States who may be 
terrorists, may be part of that group, or to determine that 
they are not persons part of that group. In order to get those 
records, we use national security letters.
    The standard needs to be relevance to our investigation. It 
is important that we track down every possible lead to 
individuals in the United States who might be undertaking 
terrorist attacks. It is not something that we did; we did not 
have the tools prior to September 11.
    It is fair to say that to the extent that we have been in 
some ways successful in preventing terrorist attacks since 
September 11, it is attributable to the tools that have been 
given to us under the PATRIOT Act.
    Let me finish by saying that what we did not have in place, 
which we should have had in place, is a compliance program, to 
assure that the procedures we had were being followed across 
the field, and that our databases were accurate and up to date. 
We did not have that. We have put that into place.
    And my hope and expectation is that, with all of the 
changes we have made, we will never again face the problem that 
we have faced in the last few months on items such as national 
security letters.
    Mr. Conyers. Well, I have more questions, of course, but my 
time has expired. I will yield to Lamar Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Director Mueller, when the American people think of the 
FBI, I think they think of your two worthy missions: one, to 
reduce violent crime and, two, to deter terrorist attacks. And 
I would like to ask you about the latter.
    To what extent is al-Qaida trying to get agents into the 
United States? Are you seeing an increase in activity or a 
decrease in activity?
    And also, to what extent is the FBI able to break up cells 
or deter those types of activities?
    Mr. Mueller. Well, as the recently released national--or 
the national intelligence report, the NIE, indicates that, for 
the next 3 years, we face a threat of terrorist attack.
    In part, it is attributable to the understanding of persons 
affiliated or associated with al-Qaida, that it is important to 
try to find individuals who can circumvent our border security 
and come into the United States, in much the way the 19 
hijackers did prior to September 11.
    They have, since September 11, not for one instant given up 
the hope and the efforts to try to infiltrate persons into the 
United States to undertake attacks.
    Mr. Smith. You are saying we need to strengthen our 
immigration laws and our border security then?
    Mr. Mueller. We have, and we need to continue to do so.
    We also need to understand that it is not just stopping 
individuals at the borders, but that, once individuals were in, 
we have to identify those individuals who may have come in with 
the intent of undertaking an attack or, as important, 
individuals within the country who have been radicalized by the 
Internet or otherwise--perhaps American citizens or perhaps 
recent immigrants--but come together, self-radicalized, with 
the expectation of being able to undertake a terrorist attack.
    So it is not just border security, but it also is our 
ability to develop sources to have tripwires out to identify 
individuals who may already be in the United States, or others 
who are coming into the United States who may be part of an 
effort to undertake a terrorist attack.
    Mr. Smith. Director Mueller, how many individuals in the 
United States have you suspected of either intending to commit 
a terrorist act or had the potential to commit a terrorist 
attack, that you have deterred, stopped, arrested or otherwise 
prevented from doing so?
    Mr. Mueller. Well, certainly----
    Mr. Smith. Is it----
    Mr. Mueller. I hate to get into numbers, particularly in an 
open forum.
    I can tell you that, since September 11, we have had 
thousands of investigations into persons in some way associated 
with terrorists, various Sunni, or even Shia terrorist groups.
    And there also are levels of participation, there is 
funding, there is recruiting, there is radicalization--all 
pieces of the terrorist puzzle--in addition to those who 
provide support or those who are going to undertake a terrorist 
attack.
    And we have to address that, across the board, and have.
    Mr. Smith. Let me ask you a question about internal policy 
at the FBI that affects, I think, most of your personnel.
    What has been the success or lack of success involved with 
the 5 years up-or-out policy, I think, that was implemented a 
couple of years ago?
    Mr. Mueller. In 2004, we determined that we needed to 
change the way we develop leadership to encourage and push 
forward, give incentives to the best in the Bureau to rise to 
the top.
    We decided that in 2004 and indicated we would--I would 
start the process 2 years later, in 2006, giving individuals an 
opportunity to adjust their career moves.
    The purpose of this was to use the supervisor's position as 
a first step in career-building, and to encourage persons to 
become Assistant Special Agents in Charge. It has had that 
effect. We have many more people seeking to move up the career 
ladder within the FBI.
    Mr. Smith. So it has been a success.
    Let me squeeze in one more last question on a different 
subject. What have been the main obstacles to the States' 
providing accurate information to you all for the instant 
background check?
    Mr. Mueller. Well, either an obvious example, such as what 
happened with West Virginia, in terms of medical and the 
psychiatric records. That is an obvious example.
    The other area is where, because of the lack of technology 
in particular States, it is difficult for the information to be 
given to us or to be adequately queried. I would have to get 
back to you on more of the specifics on that.
    Mr. Smith. Okay. If you can get back to me----
    Mr. Mueller. I would be happy to do that.
    Mr. Smith [continuing]. That would be great.
    Thank you, Mr. Chairman.
    Mr. Conyers. Thank you.
    The Chairman of the Constitution Committee, Jerry Nadler of 
New York?
    Mr. Nadler. Thank you, Mr. Chairman.
    Director Mueller, the I.G. reports that the number of 
requests for NSLs from 2002 to 2005 was over 143,000. Over half 
of those concerned U.S. persons. He also reports that the 
number of terror-related convictions the Inspector General was 
able to confirm, stemming from the 143,000 persons' information 
that was collected through NSLs, was one.
    Doesn't that sound a little unbalanced?
    Mr. Mueller. I would have to go back and look at that. 
Quite clearly, national security letters have figured in any 
number of terrorist investigations, disruptions and 
prosecutions.
    Mr. Nadler. Substantially more than one?
    Mr. Mueller. Yes.
    Mr. Nadler. Because the I.G. reports that there was one 
conviction that stemmed from those 143,000 people.
    Mr. Mueller. I have to go back and look at that statement. 
I didn't focus on that. But I can assure you that there are 
national security letters that focus in any number of 
investigations.
    Any time you have an investigation such as this Operation 
Overt, where individuals are trying to get on planes in the 
U.K., we will have efforts to immediately determine whether or 
not we have a threat here; if you have a JFK plot, the recent 
plot against Fort Dix, I can assure that----
    Mr. Nadler. All right. Let me go further.
    The I.G. also discovered that the subscriber information 
for approximately 11,000 phone accounts was obtained with only 
nine NSLs. Nine NSLs produced 11,000 phone accounts.
    Mr. Mueller. I would have to get back to you on that.
    Mr. Nadler. All right, because--well, that is what is in 
the I.G.'s report. And my question is, that ratio sort of 
implies a fishing expedition, or at least not very focused 
investigations.
    Mr. Mueller. I am not going to disagree with you in terms 
of the perception. I would have to get back to you as to the 
circumstances under which, number one, what the I.G. was 
referring to and the circumstances that he is referring to.
    Mr. Nadler. Okay.
    In the June 1, 2007, draft guidelines on the issuance of 
NSLs, on page three, there is a discussion of e-mail and what 
is content and therefore cannot be obtained by an NSL, but that 
discussion is redacted.
    So my question is, do you consider the body or the text of 
an e-mail to be content?
    Mr. Mueller. Yes.
    Mr. Nadler. Both?
    Mr. Mueller. If you are talking about the body of an e-
mail, that is content.
    Mr. Nadler. And therefore cannot be obtained?
    Mr. Mueller. Yes, the content.
    Mr. Nadler. And therefore cannot be obtained by an NSL?
    Mr. Mueller. That is correct.
    Mr. Nadler. And the subject line of the e-mail?
    Mr. Mueller. I would have to make certain and get back to 
you. I believe that is content as well.
    Mr. Nadler. Okay.
    Now, on page 109 of the Inspector General's report, it is 
reported that agents are accessing ``NSL information about 
parties two or three steps removed from their subjects without 
determining if these contacts are real serious connections.''
    Doesn't this violate even the relevance standard for 
issuing NSLs?
    Mr. Mueller. Again, I would have to go--it may. I do not 
believe it necessarily does, but is determined by the 
circumstances of a particular investigation.
    Mr. Nadler. And if it doesn't, would that not imply that 
the relevance standard is a little too low?
    Mr. Mueller. Again, I think you would have to look at the 
circumstances. I don't think you can base a conclusion on that 
statement alone. You would have to look at the circumstances, 
because there may well be indications that this person is part 
of a community----
    Mr. Nadler. Let me switch topics.
    In the revisions to section 505 that were made by the 
PATRIOT Act, the new standard was that, in order to get an NSL, 
you simply had to assert that it is relevant to an ongoing 
investigation----
    Mr. Mueller. Yes.
    Mr. Nadler [continuing]. With respect to terrorism.
    The old standard was that, in order to get an NSL, you had 
to assert specific and articulable facts giving reason to 
believe that the information or records sought by the letter 
pertain to a foreign power, an agent of a foreign power, or 
terrorist.
    Now, why shouldn't we go back to that?
    Mr. Mueller. Because it would absolutely hobble us in terms 
of our ability to do it. Because you need information to make 
the finding that the person is an agent of a foreign power. The 
only way to get the information to make that finding is to 
obtain records in which there is a limited privacy right, such 
as subscriber records, until you make that finding. And to put 
that finding at the front, it would preclude us from doing 
exactly what I said we need to do.
    When we get telephone numbers from a U.K. plot, we do not 
know whether the persons contacted in the United States are 
terrorists or not. If we had that standard, we would not be 
able to follow up on that information we got from our 
counterparts overseas.
    Mr. Nadler. I yield back.
    Mr. Conyers. Thank you.
    The former Chairman of the Judiciary Committee, Jim 
Sensenbrenner from Wisconsin.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    First, Director Mueller, let me say I appreciate your 
meeting with me yesterday relative to the audit of the 
Milwaukee FBI office on privacy violations.
    And while I understand that the audit is not finalized and 
it would be premature to talk about the substance of that, I 
would like to ask you to send me a copy of the finalized audit 
once it is available. Can you do that?
    Mr. Mueller. I will look and see if we can, yes.
    Mr. Sensenbrenner. Okay.
    Now, relative to national security letters, am I correct in 
understanding that the Justice Department and the FBI had 
national security letter authority long before the PATRIOT Act, 
specifically since 1986?
    Mr. Mueller. Correct.
    Mr. Sensenbrenner. And the national security letters were 
not new at the time the PATRIOT Act was signed by the President 
in October 2001?
    Mr. Mueller. Also true.
    Mr. Sensenbrenner. Am I also correct in understanding that 
national security letters, under the revised standard, cannot 
be used for a garden-variety criminal investigation that does 
not involve terrorism or espionage?
    Mr. Mueller. Yes, sir.
    Mr. Sensenbrenner. So my question is, what kind of 
safeguards were there in the FBI to prevent NSLs from being 
used for the non-terrorism and non-espionage investigations?
    Mr. Mueller. The safeguards we had were, in essence, the 
agent had to do a write-up of the basis for the NSL that would 
support the national security letter itself. And then it would 
have to approved by the Special Agent in Charge.
    What we have put into place since we realized that this was 
not always happening appropriately, is we have required, now, 
that before a Special Agent in Charge signs-off on a national 
security letter, that special agent--the lawyer in the office--
go through the national security letter to ensure that it is 
appropriately being issued, and that there is the appropriate 
underlying investigation supporting the issuance of that 
national security letter.
    We also put into place--and it is being piloted as we 
speak; the pilot started this week--a new database, software 
program, and we have started piloting it in the Washington, DC, 
field office, which requires certain information to be filled 
into particular blanks before that national security letter 
will be issued, which will assure that we have the appropriate 
approvals but will also assure that we have the appropriate 
count to forward to Congress, as well.
    Mr. Sensenbrenner. Have you had any experience to make sure 
that these new guidelines are working and preventing national 
security letters from being issued when they are not supposed 
to be issued?
    Mr. Mueller. Well, in the wake of the I.G.'s report, we 
took approximately 200 agents and others and did an audit of 
all of our offices to see where we were. In the wake of that, 
if there was an office that had a particular problem, we have 
addressed it.
    We are continuously in the process of training and putting 
out the guidance. I think somebody had a copy of the draft 
guidance. We had run our draft guidance past privacy and civil 
rights organizations to get input on that policy. We have 
issued that policy.
    And I know the Inspector General is looking at the ability 
of our initiatives to address the problem and will be reporting 
to Congress in December. But my expectation is that he will 
find that we have taken the steps necessary to assure that this 
does not happen.
    Mr. Sensenbrenner. As the author of the PATRIOT Act and the 
author of the PATRIOT Act reauthorization, which did put some 
restrictions on NSLs about a year and a quarter ago, now let me 
say that I am very concerned that the controversy on NSLs is 
bringing down certain support for the PATRIOT Act, even though 
the bells and whistles and traps to prevent NSL abuse had 
nothing to do with the PATRIOT Act, because the NSLs were 
authorized, I believe, in the law that was authored by the 
PATRIOT Act's principal critic in the Senate, Senator Leahy.
    I guess people have a much lesser attention span or 
institutional memory on the other side of the Capitol than over 
here. But I can say that in 2006, this Committee did a lot to 
fix up some of the gaps that Senator Leahy had in the NSL law 
of 1986.
    And my time is up.
    Mr. Mueller. Let me just say that I testified before both 
bodies, sir, and I understand what you are saying. [Laughter.]
    But will not comment. [Laughter.]
    Mr. Conyers. Careful.
    Mr. Mueller. That is what I--I have a very good 
relationship with the other body.
    Mr. Conyers. The Chairman of the Subcommittee on Crime, 
Bobby Scott of Virginia.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Mueller, you mentioned linguistics as a skill set that 
is needed at the FBI. Does the diversity in employment within 
the FBI reflect the need to get persons with the cultural 
knowledge, sensitivity and linguistics? Do you have enough 
people of different backgrounds?
    Mr. Mueller. Yes, sir.
    Mr. Scott. Could we get the diversity breakdown at the FBI, 
if you could provide that, of your employees?
    Mr. Mueller. Absolutely.
    Mr. Scott. We have heard previously that there was 
virtually nothing that you can get with a no-warrant NSL that 
you couldn't get by going through FISA. Was that right?
    Mr. Mueller. That is wrong. We are limited to what we can 
get under NSLs. There are broader categories of records we 
certainly can get going through the FISA Court under 215.
    Mr. Scott. You can get more out of FISA than you can get 
with an NSL?
    Mr. Mueller. Yes.
    Mr. Scott. Then remind me why we need--and then you can get 
an emergency after-the-fact warrant under FISA.
    Mr. Mueller. Yes.
    Mr. Scott. So why do we need to do this without a warrant?
    Mr. Mueller. Because we need to react quickly to terrorist 
threats. We need the capability of immediately--when we get 
information on individuals who may want to communicate with 
others, we need to get that information. We need to get the 
information, say, on a number, 10, 15, 20 numbers.
    If we make an arrest someplace, and we find an address 
book, and the numbers are in that address book, of a terrorist, 
we have to know with whom that terrorist is communicating, and 
we need to get that information quickly. And we cannot take the 
time, in my mind, to go through that which is necessary to have 
the court review the paperwork in order to get that 
information.
    Mr. Scott. Isn't there an after-the-fact procedure where 
you can go get the information and then later get around to the 
paperwork?
    Mr. Mueller. That is true. But the paperwork for the court 
proceeding to get a FISA, where you are seeking the right to 
intercept the conversations of an individual, is generally a 
quarter-of-an-inch thick. It requires the certification by me, 
the certification by the attorney general, an affidavit by an 
agent.
    And to require that in order to get the information on a 
subscriber would be an inordinate burden and would hobble us, 
as I have said before, in our ability to swiftly react to the 
threat of a terrorist.
    Mr. Scott. Wait a minute. I thought you said you could 
already swiftly react, go get the information, and then do the 
paperwork when you get around to it?
    Mr. Mueller. Right. And the paperwork would inundate us.
    I have given you some examples of what we do in terms of 
needing the subscriber information, the e-mail information and 
the like. And we do it countlessly, day-in and day-out.
    Mr. Scott. The advantage of a warrant is that you--it is an 
ex parte proceeding. Only one side is represented, so you can't 
possibly lose the case. But the fact that you just have to 
explain to somebody what you are doing, kind of, has a little 
check and balance to it that you don't have when you just go on 
your own and get what you want.
    Mr. Mueller. Well, there are, in my mind, several checks 
and balances--internal checks and balances in the---- 
[Laughter.]
    Mr. Scott. I am sorry, but some of us look at checks and 
balances as one branch of government looking at another branch 
of government. An employee of the executive branch checking 
with a subordinate does not constitute, in my mind, a check and 
balance.
    Mr. Mueller. I was going to go on to say also the 
Department of Justice. The Inspector General's Office, under 
the original PATRIOT Act and the revisions to the PATRIOT Act, 
is looking at our processes and procedures. And ultimately, as 
well, the checks and balances from Congress, the other branch 
of government.
    In my mind, where the intrusion into privacy is somewhat 
limited when it comes to toll records and the like, the 
necessity for going through the FISA process is much reduced. 
In the same way in the criminal sphere, where a grand jury 
subpoena is issued on a relevant standard--there is a more 
dramatic incursion into the privacy rights in terms of the 
Title III and the like, you go to a court.
    Mr. Scott. In the past, the Department has seen the 
requirement of proving force and fraud as a major obstacle to 
their efforts to investigate and prosecute cases of domestic 
human trafficking. To address the problem, as you know, we 
recently increased the penalties from 10 to 20 years under the 
Mann Act, so that the Department could pursue domestic 
trafficking cases, and also changed the standard to remove the 
provision that you had to prove force, fraud, and coercion.
    Since increasing the relevant penalties, what has the FBI 
done to bring about more investigations in this case? And how 
has the FBI used the more relaxed standard for prosecution 
purposes? And what services are available for the victims?
    Mr. Mueller. I would have to get back to you on the 
specifics tied into that statutory change, if you will allow 
me.
    Mr. Scott. Well, let me just ask one other quick question. 
And that is, you know that running an Internet gambling 
operation is illegal in the United States. Is there any way 
that you can effectively prohibit Internet gambling by people 
in the United States on the Internet? And if not, would it make 
better sense to legalize and tax it and regulate it?
    Mr. Mueller. I have not really looked or thought long and 
hard about it, but I would probably be adverse to legalizing 
it, for a variety of reasons.
    They are difficult to prosecute because they can go 
offshore so quickly. And with the ubiquitous nature of the 
Internet, it is often difficult, with anonymizers and the like, 
to track down individuals who are running offshore gambling 
organizations in the United States, although we endeavor to do 
so.
    Mr. Conyers. The Chair recognizes the distinguished 
gentleman from California, Elton Gallegly.
    Mr. Gallegly. Thank you very much, Mr. Chairman.
    And I would like to thank the gentleman from North Carolina 
for letting me speak out of order. And I will try to be brief, 
because I have another commitment.
    Director Mueller, as of April of this year, there is a 
backlog of 636,000-plus illegal alien absconders. And that 
number has doubled since the last report 5 years ago.
    Clearly, many of these folks have an objective to do great 
harm to our Nation. Many others are here strictly for economic 
reasons.
    Clearly, I understand that, under your leadership as a 
Director, you have had probably more challenges of significant 
magnitude than any Director in history. And I know that one of 
the most difficult jobs in any administrator's life is 
establishing priorities.
    But could you tell me if and what the FBI is doing to 
identify and apprehend illegal alien absconders?
    Mr. Mueller. It generally does not fall within our 
bailiwick. We certainly help the Department of Homeland 
Security and its various agencies where we can. And I know that 
Homeland Security and Mike Chertoff have programs to address 
that particular issue. But our support is secondary support, 
where we can give it.
    Mr. Gallegly. Appreciate that.
    An issue that we have heard a lot about lately, FISA, the 
Foreign Intelligence Surveillance Act. And we know the 
Administration has recently asked Congress to modernize this 
act. Could you give us a very brief summary of why you feel 
that that is so important?
    Mr. Mueller. Generally speaking, as I referred to in my 
opening remarks, the digitization, the ability of persons to 
communicate in a variety of ways through digital networks, 
whether it be Skype or voice-over IP, otherwise, the ability of 
persons to utilize communication capabilities across 
international lines has grown immensely over the years, and the 
statutory framework has not kept up with it.
    It goes without saying that, as was shown on September 11, 
we face threats from overseas that we never thought we would 
face prior to that happening, because of the oceans on both 
sides of us.
    But with internationalization, we have to be astute and 
flexible in understanding that those who wish to do us harm 
from overseas can quickly cross borders with the click of a 
mouse or come into the country.
    One of the things we absolutely need to do is, to the 
extent possible, understand that we have to use all of our 
resources on persons who are not U.S. citizens, in foreign 
countries, to obtain information with regard to their 
communications traffic. With a United States citizen in the 
United States, there should be a different mechanism, we all 
agree.
    But the FISA modernization statute that we have sought from 
Congress will upgrade those capabilities and allow us to do, in 
some sense, that which we were able to do before technology, 
when we were using the old technology, but have been barred 
from using given the provisions of the FISA statute.
    But we have to recognize that the division between 
information from outside the country--the division of that 
information from outside the country to the information inside 
the country has to be broken down. There has to be integration. 
There has to be use of full capabilities, particularly when it 
comes to non-U.S. persons.
    Mr. Gallegly. Thank you.
    Mr. Director----
    Mr. Conyers. Would the gentleman--are you finished?
    Mr. Gallegly. I just want to make a 15-second summary.
    It is clear, I think, to most of us that in order to get to 
the core of organizations like al-Qaida, who have absolute 
modernized technological telecommunications ability, is to 
penetrate through the network. And without this modernization, 
I think we all know that it is going to be very difficult to 
penetrate that outside network to get to the core.
    I thank you very much.
    I thank the gentleman for letting me speak out of turn.
    Mr. Conyers. Would the gentleman yield to me----
    Mr. Gallegly. Certainly.
    Mr. Conyers [continuing]. The balance of his time? Thanks, 
Elton.
    Mr. Gallegly. Thank you very much.
    Mr. Conyers. Since we are not likely to have a second 
round, I just wanted to get in some of the two issues in 
Dearborn, Michigan, in which we have the largest concentration 
of Muslims and Arabs of anywhere in the country.
    And we have had two charities in Dearborn that have had 
their accounts suspended, and they are under investigation. And 
individual bank accounts of people of Arab descent have been 
summarily discontinued by their banks. And I need to have the 
FBI assist us in understanding where all of this is going, 
since these two charities enjoyed a pretty good reputation in 
the general public.
    Mr. Mueller. Mr. Chairman, I think I am sure you understand 
that whatever actions were taken, at least by the law 
enforcement authorities, were taken with the approval, 
certainly, of the U.S. attorney and, in most cases, I would 
believe, the courts.
    With regard to independent actions of banks, that is 
something I am not aware of and would be happy to look into.
    But whatever actions have been taken on these charities, I 
think you will find, have been taken as a result of appropriate 
legal process.
    Mr. Conyers. Did you know, in 2004 and it was reported in 
the papers--Homeland Security ICE, the Immigration and Customs 
Enforcement section, and the FBI, were knocking on doors in the 
October before the November elections, that apparently gave 
many of those citizens in that area the impression that they 
were being intimidated about the voting process?
    Mr. Mueller. No, sir. It is the first I have ever heard of 
that. I have not heard a complaint about that. And I can assure 
you that at no time have we in the Bureau in any way sought to 
intimidate an individual from exercising their constitutional 
right to vote.
    And if you wish to pass on the specifics to me, I will 
certainly look into that.
    Mr. Conyers. I will get the information to you.
    Mr. Mueller. It does not sound like something that we would 
engage in, at all.
    Mr. Conyers. Thank you.
    The Chair recognizes the distinguished gentleman from North 
Carolina, Mel Watt.
    Mr. Watt. Thank you, Mr. Chairman.
    Mr. Director, one of the concerns that I am hearing 
expressed to me by a number of people, is that traditional law 
enforcement is being compromised by our overemphasis on--not 
overemphasis, I guess you can't overemphasize--but we are 
paying so much attention to terrorism and that prospect, that 
your traditional law enforcement--and the 2005 FBI Uniform 
Crime Report suggests that most, if not all, the major 
traditional criteria are up, crime-wise. And despite that, that 
the FBI crime investigations, violent crime investigations, are 
down by 60 percent.
    Respond briefly to that, if you can. I don't want to 
respond to it too long, because I have a whole other question 
that I need to ask you to respond to.
    Mr. Mueller. We have had to reprioritize after September 
11, moving agents from criminal cases over to counterterrorism 
and counterintelligence. We are not doing as many drug cases. 
We are not doing as many smaller white-collar criminal cases as 
we have done before. We are not doing as many bank robberies as 
we have done before. We have had to focus.
    What we have done----
    Mr. Watt. So the concern that people are expressing is 
correct, then, that you have shifted----
    Mr. Mueller. Well, yes, but we have also grown our safe 
street task forces to address crime. And my own view is that we 
are most effective when we leverage our relationships with 
State and local law enforcement.
    And so, we are doing--we have far more task forces than we 
have had in the past. And we are focusing on violent crime. But 
we could always use more resources to address that.
    Mr. Watt. The statistics don't seem to bear out that this 
task force process is working as effectively as the other 
process, but that--I just wanted to make sure that we got that 
on the record.
    I wanted to ask you about the testimony of Mr. Comey and 
ask you if you can verify or give us your description of what 
occurred at the hospital, or leading up to the hospital visit, 
that has become so famous.
    Mr. Comey says that he phoned you, and you agreed to meet 
him at the hospital, and that you ordered the FBI agents on Mr. 
Ashcroft's security detail not to evict the Acting Attorney 
General from the hospital room.
    Can you just give us--I won't program what he said. I would 
rather hear what you have to say about that whole sequence of 
events.
    Mr. Mueller. I don't dispute what Mr. Comey said in terms 
of receiving a call requesting my going to the hospital, and 
alerting persons that Mr. Comey wanted to be present during any 
conversations that were had with the Attorney General.
    Mr. Watt. And he further says that the President met with 
you, and after that meeting emerged to inform Mr. Comey that 
the President had authorized the changes in the program that 
had been sought by the Justice Department.
    Do you confirm that that is correct?
    Mr. Mueller. I don't dispute what Mr. Comey says.
    Mr. Watt. Okay. What do you make of that whole episode?
    Mr. Mueller. Unfortunately, Congressman, I don't think it 
appropriate to speculate. I can answer questions as to what 
happened to the extent that I am able to, but beyond that--I 
would be happy to answer any further questions----
    Mr. Watt. Well, can you confirm that you and some of your 
agents were prepared to resign because of--leading up to this 
controversy?
    Mr. Mueller. Again, I am uncomfortable getting into 
conversations I had with individuals, because I do believe that 
individuals are entitled to my unfettered thoughts.
    Mr. Watt. Can you confirm that you had some serious 
reservations about the warrantless wiretapping program that 
kind of led up to this?
    Mr. Mueller. Yes.
    Mr. Watt. Okay.
    I thank the Chairman, and I yield back.
    Mr. Conyers. Thank you.
    Now, Howard Coble of North Carolina, the former Chairman of 
the Subcommittee on Courts, the Internet, and Intellectual 
Property, now the Ranking Member, is recognized.
    Mr. Coble. Thank you, Mr. Chairman.
    Mr. Mueller, good to have you with us. Thank you for your 
years of public service.
    I am going to ask you a provincial question, tobacco being 
prominent in my State. Have there been recent arrests regarding 
the trafficking of counterfeit cigarettes by terrorist groups?
    Mr. Mueller. I would have to check on recent--there was one 
notable case from several years ago, with Hezbollah, in which I 
know cigarettes were being shipped from North Carolina to, if I 
am not mistaken, it was Detroit, and there was substantial 
prosecution.
    I would have to check to determine whether any additional 
prosecutions since then.
    Mr. Coble. I would like you to do that, if you could, Mr. 
Mueller.
    Mr. Mueller. Happy to get that.
    Mr. Coble. Mr. Mueller, we are all aware of several recent 
high-profile public corruption arrests and prosecutions of 
Federal officials. How significant a problem, in your opinion, 
is public corruption in State and local governments? And does 
the FBI pursue these cases as well?
    Mr. Mueller. It is hard to compare at times. I actually 
think that the incidence of public corruption is probably less 
so now than it was, say, 10 or 15 years ago.
    I do believe, however, that it is and should be one of the 
main, if not the principal, priority, and it is currently the 
principal priority of the FBI, to identify and ferret out 
public corruption, wherever it occurs. We have had, as I 
indicated, in the last 2 years, over 1,500 convictions of 
Federal, State, and local officials who have abused the trust. 
And to the extent that that happens, it undercuts the core of 
democracy.
    And so, for us, it is a substantial priority, and I can say 
that there is enough work to keep us busy for a long time.
    Mr. Coble. Mr. Mueller, recent reports have highlighted the 
growing problem of Chinese espionage efforts. Describe the 
nature of that threat, if you can, and the FBI's role in this 
area.
    Mr. Mueller. I can probably say more in a classified 
setting. I can say that it is a substantial concern. China is 
stealing our secrets in an effort to leap ahead in terms of its 
military technology, but also the economic capability of China. 
It is a substantial threat that we are addressing in the sense 
of building our program to address this threat.
    And beyond that, I would feel uncomfortable saying more in 
this open setting.
    Mr. Coble. I can appreciate that. Perhaps we could get 
subsequent information on that.
    Mr. Mueller. Yes, sir.
    Mr. Coble. Mr. Director, let me ask you this. The recent 
rise in violent crime does not appear to be uniform across the 
country. Cities, for example, like Los Angeles and New York, 
actually experienced a reduced crime rate. To what do you 
attribute this disparity?
    Mr. Mueller. There are probably a number of factors. A 
number of people are trying to wrestle with what contributes to 
the uptick in crime in particular cities and not others.
    I do believe that the police departments in both New York 
and Los Angeles have been on the cutting edge of devising new 
ways to address violent crime. But there are also a number of 
factors probably outside the control of police departments to 
address it.
    In response to one of Mr. Scott's question with regard to 
the use of task forces, in Los Angeles we have, over the last 6 
months, come together on a task force with the Los Angeles 
Police Department, San Francisco Sheriff's Office, and a number 
of other Federal agencies to address gang violence. And there 
has been a substantial reduction in gang violence in Los 
Angeles as a result of the joint efforts in that task force.
    So it is not just us, but it is the other Federal agencies, 
coming together to target. And when we do so, we are effective.
    Mr. Coble. Let me try one more question before the red 
light illuminates.
    Recent terrorist plots were thwarted at Fort Dix Army base 
and JFK International Airport. What role did the FBI play in 
those matters?
    Mr. Mueller. We, along with the joint terrorism task forces 
in each of those communities, were responsible for the 
investigation and the arrests that were made as a result of 
that investigation. It was the combined efforts of the Bureau, 
with the State and local law enforcement and other Federal 
partners on joint terrorism task forces, who are responsible 
for both of those successes.
    Mr. Coble. Thank you, sir.
    I yield back, Mr. Chairman.
    Mr. Conyers. Thank you.
    Mr. Coble. Mr. Chairman, I beat the red light.
    Mr. Conyers. That has never happened before.
    Mr. Coble. I think it has. [Laughter.]
    Mr. Conyers. Maybe.
    The Chair is pleased to recognize the Chair of the 
Immigration Subcommittee of Judiciary, the gentlelady from 
California, Zoe Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And, Director, it is good to see you.
    I have strong concerns about many of the issues that have 
already been raised. But I think, as they are being handled 
well by my colleagues, I would like to ask about something that 
has not yet been attended to. And that is the role of the FBI 
in checking the names of immigration beneficiaries for any 
concern that they might pose.
    I have a strong concern about the delays that have been 
encountered for a portion of this. I understand that 85 percent 
of the names are cleared electronically right away, and that of 
the remaining 15 percent, 95 percent of those are usually 
cleared within 1 week's time.
    The problem is the 5 percent remaining. And I have 
situations, cases in my office, and I hear from other members 
all the time, where people have been waiting for as long as 5 
years for an answer.
    And I am aware of situations, now, where companies who have 
a valued employee, are going to court, getting mandamus orders 
to the FBI, just to produce an answer. And I have been told--
and I guess this is a question, not a statement, that the FBI 
is now 10,000 behind on the mandamus-ordered name checks.
    Can you tell me what you are doing to get this speeded up? 
What needs to be done? Is it additional resources? Is it 
computer technology? What do we need to do to fix this, 
Director?
    Mr. Mueller. Let me give you just a wee bit of background 
in terms of where we are.
    Back in 2002, the Citizenship and Immigration Service, they 
gave us 2.7 million names to run through, to check not just on 
that name, but any references to an individual in any of our 
files, which put us way behind the curve in doing that.
    We have a problem. I share your concern on the problem. We 
have been working with DHS, we have been working with OPM. For 
instance, OPM gave us 30 contractors to address their backlog. 
It is a combination of personnel, but it will take a period of 
time to get additional contractors on. It is a question of 
money in order to pay them to do this. And lastly, it is a 
function as well of computerizing the documents and putting 
them in digital form so the searches can be done----
    Ms. Lofgren. But these are paper files, sir?
    Mr. Mueller. They are.
    Ms. Lofgren. My goodness.
    Mr. Mueller. And they are paper files around the country. 
And the problem is that we have files going back--I don't want 
to say we have got them back to when we started in 1908, but we 
have some files that probably are of that vintage. And quite 
clearly----
    Ms. Lofgren. Presumably, those files would not be relevant 
today.
    Mr. Mueller. They would not. And what we have tried to do 
is triage in terms of seeing if there are ways to expedite it 
by cutting out categories of files that we need to look at. We 
are also talking with DHS in terms of changing the 
requirements, in terms of looking at all references.
    So we are looking at it from a variety of perspectives, 
understanding that there are a number of people out there that 
are very frustrated that they cannot get their citizenship, and 
that Congress in particular is frustrated at this backlog. So 
we are doing what we can.
    Ms. Lofgren. Well, I am concerned on two levels. One, that 
perfectly honest, honorable people--and way less than 1 percent 
ever have anything negative come out. But if you are waiting 
for 5 years, the 1 percent is out there in America and unknown 
to us. So that is a concern from security, and it is also a 
concern from the process not working well.
    Let me ask you about your computer system. Because it 
strikes me that, not only is this a problem for the orderly 
administration of the immigration and citizenship laws but, 
just in terms of law enforcement, if you have got paper files, 
your virtual case----
    Mr. Mueller. Virtual case files?
    Ms. Lofgren [continuing]. File--that was $170 million, was 
that right?
    Mr. Mueller. Well, the virtual case file--yes.
    Ms. Lofgren. And did we get anything of value out of it?
    Mr. Mueller. Yes, we did, but not as much as we should have 
out of that. And several years ago, we decided to go another 
route. And the Sentinel program that we put into place, for 
four stages, we successfully completed, as I indicated, the 
outset, first phase of Sentinel, this last June.
    Ms. Lofgren. Well, when that is done, will the searches by 
digitized prospectively?
    Mr. Mueller. Yes. And as we go through the process, now, we 
are digitizing--every time we do a search, we digitize the 
information.
    Ms. Lofgren. Okay.
    Mr. Mueller. But there are still miles of records out 
there, miles of records out there that have not been digitized.
    Ms. Lofgren. I know my time is up, but I would suggest 
that, you know, it is always hard to have a records-keeping 
function compete with personnel in the field and the like.
    Yet I would think that that ought to be one of the highest 
budget priorities, for you to have to digitize all those 
records. And it will give power to your agents in ways that 
will far exceed the funding necessary to do that, in 6 months' 
time.
    Mr. Mueller. Well, we have a new facility that we are 
building out in Winchester. We have had the funding for it. It 
is going into place. It will be one of the most modern records-
handling facilities in the country. And we started doing this 
almost 3 years ago, maybe even 4 years ago, understanding that 
we have to bring ourselves into the modern era and that we have 
to digitize just about everything.
    The problem is we have miles upon miles and miles of files. 
And it is a question of resources and bringing on board the 
best technology.
    In the next year, my expectation is, we will leap ahead 
with our new facility out in Virginia.
    Ms. Lofgren. I see my time has expired. Thank you, Mr. 
Chairman.
    Mr. Conyers. Thank you.
    The distinguished gentleman from Cincinnati, Ohio, Steve 
Chabot.
    Mr. Chabot. Thank you, very much, Mr. Chairman.
    Thank you for being today, Mr. Mueller.
    Several Members of this Committee have an interest in 
ensuring that the contracting opportunities available in the 
Federal prison industries, which is set forth in section 4124 
in title XVIII, are protected.
    And, as I am sure you know, the FBI is the Federal prison 
industry's largest customer, comprising 35 percent of the 
Federal prison industry's annual revenue.
    In fact, in response to our urging, the Attorney General 
issued a memorandum last October to all the Department's 
components, including the FBI, of course, directing them to 
comply with their legal obligations under the Federal 
Acquisition Regulations--and, again, including the FBI.
    Unfortunately, this directive hasn't settled the issue. 
Because over the last few months, we have received ongoing 
accounts of FBI officials circumventing this directive and 
their legal obligations to contract work out to the Federal 
prison industries.
    In a briefing provided on March 27 of this year by FBI 
Deputy Assistant Director Joe Ford, Congressman Bobby Scott, 
who was here--he is right here now--Congressman Scott and I 
were assured that while three contracts that should have been 
outsourced to the Federal prison industries were not, steps had 
been taken to prevent this situation from reoccurring. Yet we 
continue to hear accounts of non-compliance, in fact defiance, 
as recently as last week.
    Is there something that you can assure us that you will do 
to look into this matter, and make sure that the FBI is meeting 
its legal obligations, so that contracts that are supposed to 
go to Federal prison industries will? Because as we know, the 
people that are behind bars, most of them are going to come out 
someday, and it makes sense to give them job skills and 
something to do. It is safer for the guards and those sorts of 
things.
    So could you respond, please?
    Mr. Mueller. Surely.
    I don't purport in any way to be an expert in the area of 
contract formulation. But I have been aware of this issue. And 
I believe that we are following the law.
    Again, I would have to go back and study it more, but my 
expectation is that you would also find there is a 
responsibility for competition under the statutory 
requirements.
    And it is not the conflict, but how you coordinate the 
responsibility to let competitive contracts, along with the 
desire to provide to the Bureau of Prisons the business that 
creates the issue.
    But I can tell you and assure you that we are trying we are 
trying to comply with the statutes to the letter of the 
statute. And I would be happy to get back to you and review 
that more personally, and see if there is some issue there that 
I am missing.
    Mr. Chabot. Thank you. I would appreciate that, if you 
could get back to me and also Congressman Scott, as well. I 
think they essentially agreed that the three contracts should 
have been, weren't let out, they would do better, and 
apparently there is still a problem. So if you would look into 
that, we would greatly appreciate it.
    The other matter I would like to mention, in 2000, the FBI 
extended DNA testing to locate missing persons and identify 
unidentified human remains and established the National Missing 
Persons DNA Database to store this information.
    How effective has this database been in locating and 
identifying missing persons and unidentified human remains? And 
how does the FBI's database interact with the Center for Human 
Identification, located at the University of North Texas?
    Last month, the Administration announced the creation of 
yet another new database, called NamUs, which creates a central 
reporting system for unidentified remains. How will the FBI's 
database interface with this new database, and what additional 
resources are needed? Or can the resources that are in place be 
streamlined to truly assist families who are searching for 
loved ones?
    My interest in this came from a woman, Debra Culberson--her 
daughter, Carrie, was murdered, and they have never found the 
remains, unfortunately.
    And this is a fairly common occurrence. And to give some 
closure to the families, it is certainly helpful. And there are 
thousands of cases where these unidentified remains are 
literally in a coroner's office or somewhere, maybe in another 
State.
    And so if you could respond, I would appreciate it.
    Mr. Mueller. The database we established for missing 
persons was, I think, an outgrowth of the development of the 
mitochondrial DNA capabilities. And in terms of its success, I 
periodically hear anecdotal stores of successes they have had. 
But I would have to get back to you on the statistics.
    I am not certain about our intersection with the group at 
the University of North Texas, and I would have to get back to 
you on that. Quite clearly, the developments we have had in DNA 
over the last number of years have transformed in some sense 
the criminal justice system--giving us positive identifications 
of individuals, whether it be persons who were subsequently 
successfully prosecuted, but also missing persons.
    As the use of DNA grows, we are short of resources, we are 
backlogged. And whether it be for the missing persons database 
or to more effectively and efficiently process requests for DNA 
examinations, it is something where we are going to need 
substantial resources in the future. My belief is the Federal 
system we have that integrates the State systems is working 
overall very well.
    Mr. Chabot. Thank you very much.
    I think my time has expired, Mr. Chairman. Thank you.
    Mr. Conyers. Thank you.
    I would be pleased to recognize the indefatigable 
gentlelady from Houston, Texas, Sheila Jackson Lee.
    Ms. Jackson Lee. Welcome to Mr. Mueller.
    Thank you very much, Mr. Chairman. Let me thank you for 
creating a very important--or expanding on the very important 
role of this Committee, and that is oversight.
    And we welcome you, Mr. Mueller. I know that we have 
visited before and you have missed some times. We hope you are 
well. Thank you for that.
    I have three questions. My time is very, very short. And I 
think in the spirit of oversight, we have some very, very 
important questions to focus on that address a line of 
questioning that we have addressed over the past couple of 
weeks.
    It is March 10 when General Ashcroft was in the hospital 
and you got a call from Jim Comey, concerned about a meeting 
that Mr. Gonzales was going to have with the chief of staff of 
the White House.
    And it seems as if you would dispatch your FBI detail so 
that Mr. Comey would not be evicted from the room with General 
Ashcroft. And I might say that all of us were wishing him well 
at that time--certainly expressed our concern.
    But he was going there, General Gonzales, to talk about the 
TSP, warrantless wiretapping. And it is a concern, so that we 
can get the record straight about what happened. And Mr. Comey 
was--as he arrived, he expressed a number of concerns about 
what this meeting was going to be about.
    So my question to you, first of all, did you ever speak 
with either Mr. Gonzales or Mr. Card while they were at the 
hospital?
    Mr. Mueller. No, ma'am.
    Ms. Jackson Lee. And if you did not do that, did any of 
your agents speak to those individuals?
    Mr. Mueller. I don't believe so. I arrived at the hospital 
after Mr. Gonzales and Mr. Card had left.
    Ms. Jackson Lee. The discussion--and I don't know if you 
did arrive--did you have an opportunity to talk to General 
Ashcroft or did he discuss what was discussed in the meeting 
with Attorney General Gonzales and the chief of staff?
    Mr. Mueller. I did have a brief discussion with Attorney 
General Ashcroft.
    Ms. Jackson Lee. Pardon? I am sorry?
    Mr. Mueller. I did have a brief discussion with Attorney 
General Ashcroft after I arrived.
    Ms. Jackson Lee. And did he indicate the details of the 
conversation?
    Mr. Mueller. I prefer not to get into conversations that I 
had with the Attorney General. At the time I--again, he was 
entitled to expect that our conversations----
    Ms. Jackson Lee. And I respect that. Could I just say, did 
you have an understanding that the discussion was on TSP?
    Mr. Mueller. I had an understanding the discussion was on 
an NSA program, yes.
    Ms. Jackson Lee. I guess we use TSP; we use warrantless 
wiretapping. So would I be comfortable in saying that those 
were the items that were part of the discussion?
    Mr. Mueller. The discussion was on a national--an NSA 
program that has been much discussed, yes.
    Ms. Jackson Lee. Well, I appreciate that.
    And do you then later remember what might have occurred? We 
know that there was a meeting back at the White House that 
night. Again, all of us were interested. It was raising debate 
in the United States Congress. Do you remember what happened at 
the meeting at the White House that night?
    Mr. Mueller. I was not present at the White House that 
night.
    Ms. Jackson Lee. And would you have any recollection, or 
asked for recollection through staff, whether TSP was 
discussed?
    Mr. Mueller. Well, I was not present at the meeting that 
Mr. Comey testified to having later that night at the White 
House. I do believe it related to a national security program--
or a national NSA program, I should say.
    Ms. Jackson Lee. And let me just be clear, because I am 
saying this to you. Is it your understanding that General 
Gonzales was at the hospital and visited then-former General 
Ashcroft along with the chief of staff, Andy Card? Is it your 
understanding that they did have a meeting?
    Mr. Mueller. Yes.
    Ms. Jackson Lee. And so as we listen to General Gonzales's 
testimony, I believe under oath, regarding that, his statement, 
if I might just indicate that, in a question posed to him--and 
if it was about the TSP you are dissembling to this Committee--
now, was it about TSP or not, the discussion on the 10th?
    I think this says the 8th; I think the transcript is 
incorrect. This was a question posed by Senator Schumer.
    The answer was, the disagreement on the 10th was ``about 
other intelligence activities.'' The question, specifically, 
was, was it about TSP or not? And the answer was ``about other 
intelligence activities.''
    It appears, from our discussion here today, that the 
discussion was certainly more focused than what General 
Gonzales has offered to the United States--in your 
recollection?
    Mr. Mueller. I am sorry. Is that a question, ma'am?
    Ms. Jackson Lee. Yes, it is.
    Mr. Mueller. I really can't comment on what Judge Gonzales 
was thinking or saying. I can tell you what I understood at the 
time.
    Ms. Jackson Lee. I think we appreciate your recollection. 
And I will just follow up--just to finish, Mr. Chairman, if I 
may--to say that, General, I had a series of questions about 
hate crimes and about that watch list.
    I would only say to you, on the watch list, there are many 
people hurting, as my colleague said, while others may be going 
free.
    I would like to get a report back on the watch list, 
because I will speak for the Texas Medical Center. And 
researchers and scientists are on that list--and it is very 
destructive--among others.
    My last point is, Mr. Chairman, is that we like your 
priorities on terrorism, but, if I may just show this, we have 
no action on hate crimes and racial violence. That is where you 
are in the investigation of those.
    And so I would appreciate a quick answer or a letter back 
on why we are so low. And I would welcome the letter, if the 
Chairman does not indulge me at this point.
    Mr. Mueller. Well, if I may comment on that last point, the 
addressing of hate crimes, the addressing of civil rights abuse 
is our number-two priority. But I would look at that figure in 
terms of what it represents in actual investigations we have 
undertaken.
    Because, for a substantial period of time, we would open 
cases to report that which has happened in a particular 
community, as opposed to a thorough investigation.
    And I will absolutely get back to you. But I do not believe 
that those statistics reflect what we have done in terms of 
hate crimes of civil rights abuses.
    Ms. Jackson Lee. I thank you very much.
    Mr. Chairman, I want to pursue in the Committee----
    Mr. Conyers. The gentlelady's time----
    Ms. Jackson Lee [continuing]. The conflicting testimony of 
General Gonzales.
    Mr. Conyers [continuing]. Has expired.
    Ms. Jackson Lee. Thank you very much. I yield back.
    Mr. Conyers. I would like to recommend that there will be 
questions coming to the Director from Members, that he will be 
able to respond to.
    I am pleased now to recognize Dan Lungren, the 
distinguished gentleman from California.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Mr. Mueller, let me try and go back to the FISA warrants, 
versus the NSLs, just so we make sure that the record is 
correct. Because you said you can get more in FISA warrants 
than you can get in NSL, leading to the suggestion that you 
don't need NSLs because you have FISA warrants.
    But as I understand your testimony, you use the NSLs in 
some ways in preparation to be able to get a FISA warrant, 
because the NSLs gives you non-content material. And you may 
not have the basis to go after the more extensive information, 
absent that which you would get through the NSL.
    Is that correct?
    Mr. Mueller. Correct.
    Mr. Lungren. So the NSL is an essential investigative 
enabling tool that you use at the very beginning, particularly 
in time-sensitive situations, such as evidence of an impending 
terrorist plot.
    Is that correct?
    Mr. Mueller. Exactly. Thank you, sir.
    Mr. Lungren. Now, the NSLs are extremely important. You 
have said that.
    And one of the concerns I have had, and some other Members 
of this Committee who have supported you on the NSLs and 
supported the continuation of the NSLs, is the failures in the 
Bureau to do it properly, that which was revealed in the 
Inspector General's report.
    And when we were probing on this, it became evident that at 
some of the Bureau offices, there wasn't the proper 
understanding of what was required. And so, the question we 
asked was, why didn't that information go from the General 
Counsel down to your lawyers at the office level.
    And we were told that the lawyers at the office level, 
branch level, actually work for the SAC, not for the General 
Counsel. So the question becomes, does that make good sense, to 
continue that sort of focused direction?
    Would it not make more sense to have those lawyers have a 
direct responsibility to the General Counsel's office?
    Mr. Mueller. That is an issue that we are still looking at. 
But in the meantime, what we have done is to put each lawyer, 
in each of our field offices, in the NSL process by procedure. 
And we have also indicated that they have an independent 
responsibility, beyond the office and beyond the SAC, to the 
Office of General Counsel in carrying out the responsibilities 
with regard to the--well, the responsibilities on NSLs and 
their responsibilities in their particular office.
    Now, whether we go and change the line from a dotted line 
to a solid black line is something we are still looking at. 
There are downsides to doing that.
    Mr. Lungren. I know there would be downsides to it, but let 
me just ask you this: Who has greater effect on their potential 
advancement in the FBI, the General Counsel or the SAC in the 
office in which they now work?
    Mr. Mueller. I would have to say the SAC.
    Mr. Lungren. And doesn't that create somewhat of a conflict 
from independent judgment for the counsel to the SAC, where the 
SAC is saying, ``I want these NSLs,'' and you have told us that 
the system didn't work. Would not that be perhaps one of the 
reasons why it didn't work?
    Mr. Mueller. I think that it was perhaps one of the reasons 
that it did not work, but I would not say that that was the 
main reason that it did not work. The General Counsel in a 
particular office, or the legal counsel in a particular office, 
was not put into that process in a way that gave them the 
independence and the capability to do it.
    And so, I have not totally ruled out changing it. It is 
something we are looking at. But in the meantime, we have taken 
steps to make certain that we address that particular issue.
    Mr. Lungren. I appreciate that.
    Now, let me say that I happen to think that you have been 
one that has worked very, very hard and very effectively to 
change somewhat of the culture of the FBI, with the new 
obligations that are imposed on it.
    At the same time, we have to deal with certain continuing 
difficulties with the FBI. And the order of the court that came 
down in the United States District Court for the District of 
Massachusetts today, with a $101 million damage against the FBI 
for the misconduct in the handling of confidential informants, 
where, if you read the summary, it is astounding. I never 
thought I would see that about the FBI.
    I never thought I would see four people framed, three of 
them sentenced to death, one to life imprisonment. The three 
did not receive the death sentence because it was later changed 
to life, a conspiracy to keep them in jail for three decades, 
findings by the court that are absolutely astounding.
    Now, this happened back in 1968, in the 1960 timeframe. But 
it is almost the beginning of my understanding of the 
difficulty with handling confidential informants, and the 
continued problems that ensued with the Department, as exposed 
by the report of the Inspector General just a year ago.
    Can you tell us now whether we are going to continue to 
need to pursue legislation--which I would grant you that Mr. 
Delahunt and I have sponsored for some time, which is pretty 
tough legislation with criminal sanctions in it. Or is there 
some movement in the Bureau to come up with absolute standards, 
a certification that they are being followed, with some teeth 
in it so that there are disciplinary actions taken against 
those, whether they are supervisors, SACs, whether they are 
agents, for violating the policy?
    Which, if you look at the Inspector General's report, it 
suggested that, I believe, 87 percent of the cases, the CIs 
were being followed in accordance with the promulgations that 
you had put out.
    Mr. Mueller. Let me make a distinction between two aspects 
of what you discuss. The first, and what your statue addresses, 
is the failure to inform State and local law enforcement of 
unauthorized, illegal activity by informants handled by the 
FBI, and your statute does address the FBI and no other agency.
    Mr. Lungren. Actually, it is confined to violent, felony 
offenses.
    Mr. Mueller. And the second aspect of it is the disclosure 
of exculpatory information that the FBI might have as to an 
individual who is being prosecuted at the State and local 
level.
    In the wake of what happened in Boston in the late 1990's, 
substantial attention was given to redoing the guidelines with 
regard to handling informants.
    It is mandated today that if we know--and by we, the FBI--
know of violent activity, or actually any illegal activity, of 
an informant that comes within the bailiwick of State and local 
prosecutors, we are to tell the United States Attorney, and the 
U.S. attorney is then mandated with us to provide that 
information to State and local authorities.
    Likewise, with the discovery of exculpatory information in 
our files related to a prosecution of State and local law 
enforcement, we are mandated to inform the U.S. attorney, and 
then, with the U.S. attorney, to provide that information.
    There is an oversight panel that has both FBI and 
Department of Justice personnel on it. In every office now, we 
have a human source coordinator. We have a quarterly review of 
all of our sources by supervisors to determine if there has 
been any unauthorized criminal activity or exculpatory 
information. And that is followed up by inspections.
    And I would suggest--I would be happy to give you a further 
briefing on what this--what we have put in place to address 
what I agree is a very difficult problem. I do not believe that 
this statute is the answer. I think it is too broad and it will 
have a chilling effect on our ability to develop sources and to 
address terrorist attacks, to address public corruption, to 
address--as you well know, being a prosecutor, and Mr. Delahunt 
being a prosecutor, in order to effectively undertake these 
investigations, you have to utilize sources.
    We have to do a better job in assuring that we do not have 
another debacle such as we had in Boston, and we have put into 
place the mechanisms to do so.
    Mr. Lungren. I thank you for that response.
    And I would say that on my behalf and Mr. Delahunt, and I 
know Mr. Scott has talked with me about this as well, we 
probably need to get a briefing at the very least, a closed-
door briefing, on this with you at an early date.
    I thank the Chairman.
    Mr. Conyers. The Chair recognizes the other prosecutor, 
Bill Delahunt from Massachusetts.
    Mr. Delahunt. I thank the gentleman for yielding.
    And I will pursue the same line of questioning that my 
friend from California initiated.
    But before I do, you indicated, Director Mueller, that you 
are going to get back to us. I think I have heard that several 
times, and I would suggest that is very positive.
    You also indicated you have testified before both bodies. 
And yet I have no recollection that you have testified before 
the House Judiciary Committee until this moment. But you can 
check with your staff and advise me if I am incorrect.
    Mr. Mueller. That was the first time I have testified 
before this House Committee.
    Mr. Delahunt. This is the Committee of jurisdiction. We had 
a number of concerns about the FBI not just dealing with NSLs 
or confidential informants. I dare say it would have been very 
beneficial for the Members of this panel to hear your concerns 
in a public venue regarding the terrorist surveillance program. 
Because this is too important simply to have a briefing behind 
closed doors. I would suggest that it is important to educate 
and inform the American public in full measure as to what we 
are doing.
    The legislation that Mr. Lungren and I have been discussing 
should not be viewed as an effort to punish or embarrass the 
FBI. To the contrary, I view it as an effort to help the FBI 
restore its credibility with the American people. I don't know 
if you have had an opportunity to read the decision by Judge 
Gertner today.
    Mr. Mueller. I have not.
    Mr. Delahunt. It is embarrassing. It is scathing. Let me 
just read one excerpt: ``The issue is not about failure to 
produce exculpatory evidence, but procuring convictions by 
misrepresentation, not letting perjured testimony proceed 
uncorrected but facilitating it.''
    With all due respect to internal reviews, audits, 
Inspectors General, in a democracy my understanding of checks 
and balances is as the founders foresaw it, and that is having 
an independent branch of government review what the executive 
is doing.
    It is not just the responsibility of the judicial branch to 
protect individual freedoms and civil liberties, but it is our 
responsibility, as well.
    However, having said all that, I am glad to hear that we 
are now going to have a Bureau of Compliance, where these kind 
of issues will be monitored. I dare say it is late in coming, 
with all due respect.
    And while my friend, the former attorney general of 
California, mentions that this happened in the 1960's, you and 
I know that this has been a problem of decades, including the 
1990's. We saw this decision now.
    There is a former FBI agent that is currently indicted for 
murder, awaiting trial in the state of Florida. Another former 
FBI agent that appeared at the bench that you are sitting at, 
Paul H. Rico or H. Paul Rico, was indicted for murder before he 
died.
    This is the kind of behavior that really undermines the 
confidence of the people in the integrity of the FBI.
    And talking about guidelines--we have had guidelines. We 
have had guidelines for the past four decades, commencing with 
the former Attorney General Levi. It is a question of whether 
they are going to be complied with.
    I have reached the conclusion that we need legislation in 
an effort to, once and for all, put an end to these 
embarrassing moments, not just for the Bureau, not just for the 
Department of Justice, but for the government that the American 
people support when they go to the polls every 2 years.
    Any comment?
    Mr. Mueller. Yes, I do. You and I both come from a 
background where this was a substantial issue. It is an episode 
that redounds to the detriment of the Bureau, without a 
question of a doubt. But I would suggest to you that is 
isolated. It is isolated in the past. And we have put into 
place guidelines and procedures----
    Mr. Delahunt. With all due respect, Mr. Director, you know, 
there was a cistrict attorney in Brooklyn that received 
information that was very comparable. I don't know even what 
has happened to that particular case. But there were former FBI 
agents that were indicted in that matter, as well. And the 
similarities are striking.
    Mr. Mueller. I cannot disagree with you on these instances. 
But day in and day out, over the years, FBI agents have 
undertaken investigations and done them lawfully. They have 
done them successfully.
    And I would absolutely agree with you, afterward, we have 
to ensure that these incidents do not repeat themselves. 
Because it does undercut the credibility and the work of the 99 
percent of the Bureau that are out there, day-in and day-out, 
doing their job.
    Mr. Delahunt. Thank you. And I hope to see you here--I 
hope, in the future, you adjust your schedule so that we can 
see you on a more frequent basis and have more ample 
opportunities to exchange views, to work in a cooperative 
fashion, and not wait for 6 years to see you again.
    Mr. Conyers. Well, we can correct that by inviting him 
more. [Laughter.]
    Mr. Mueller. Let me just say, Congressman, I would be happy 
to come up and sit down informally with you and go through 
whatever issues you have, periodically. And I am also, quite 
obviously, looking forward to being here again.
    Mr. Delahunt. It is good to hear that, Mr. Mueller. 
[Laughter.]
    Mr. Conyers. The Chair is pleased now to recognize the 
Ranking Member of one of our Subcommittees, Randy Forbes of 
Virginia.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Director, thank you for being here. And I am going to 
ask you to shift gears a little bit and talk about criminal 
gang activity in the country, if you could.
    And just to lay the groundwork for that, on April 20, 2005, 
the FBI Assistant Director, Chris Swecker, testified before the 
House International Relations Subcommittee on Western Affairs, 
regarding the FBI's efforts to combat criminal gangs.
    And during his testimony, he stated that there is some 
evidence of an increased level of sophistication and some 
indications of a hierarchy of leadership.
    And cliques throughout the country often follow the lead of 
the Los Angeles-based cliques. And there are reports of Los 
Angeles-based members traveling throughout the United States 
for the purpose of recruiting new members, establishing new 
cliques, and taking over existing Latino gangs and instilling 
discipline through violence and intimidation.
    And yesterday the Washington Times reported on a recent 
Army intelligence assessment that identifies MS-13 as an 
organization that can function as networks with extensive 
transnational linkages.
    Furthermore, their internal functions include recruiting, 
logistics, attacks, intelligence, and activities including 
murders, drugs, extortions and others.
    And my questions for you are these: Do you agree with this 
upgraded assessment? How many members of MS-13 do you think we 
might have in the United States or internationally? How 
sophisticated are their operations? What kind of threat are 
they posing to us at this particular point in time?
    Mr. Mueller. First of all, I agree with the assessment. 
There are many thousands of persons associated with MS-13 in 
the United States, in Guatemala, in Mexico, in quite obviously 
El Salvador and several other countries. And the threat is not 
just limited to Los Angeles, but is throughout the United 
States.
    One of the benefits of developing an intelligence 
capability within the Bureau is to better identify those areas 
within the United States that currently have a presence of MS-
13, identify those areas in the United States that did not have 
a presence of MS-13, and make certain they do not have a 
presence of MS-13.
    We have a task force, MS-13 task force, with a number of 
participants from various agencies that address this across not 
only the different State borders within the United States but 
transnationally. Approximately a year ago, there were some 600 
MS-13 individuals who were arrested not only in the United 
States, but in El Salvador and Guatemala, Mexico, I think it 
may have been Dominican Republic, Honduras in a coordinated 
takedown.
    With a gang such as this that crosses borders, it is a 
function of globalization, a different type of globalization 
which requires us to work cooperatively and build allegiances 
and alliances with our counterparts overseas, if we are to 
effectively address what I would call a scourge of gang 
activity.
    As I mentioned--I would finish by saying that we have been 
somewhat successful recently in a joint task force operating 
out of Los Angeles to address violent crime with MS-13 and the 
18 street gangs there.
    Mr. Forbes. And if I could follow up on that--and I know 
you did have that success. You mentioned it earlier. How 
important are the joint task force capabilities to be able to 
pull down the gang networks that you are seeing, especially the 
national connectivity that we are beginning to see with MS-13?
    Mr. Mueller. My belief is task forces are tremendously 
important. And that it is tremendously important that State and 
local law enforcement authorities be funded to support task 
forces.
    The funding constraints on State and local law enforcement 
have been somewhat substantial over the last years. We ask them 
to participate in joint terrorism task forces, to join with us 
in addressing the threat of terrorism. They ask us to 
participate with them to address what is most on their mind, 
which often is violent crime and, quite often, violent crime at 
the hands of gangs.
    And the funding for both us, as well as State and local law 
enforcement, to address this must be provided, if we are to 
make a dent in violent crime activity, violent gang activity in 
the United States.
    Mr. Forbes. And the last question--you may, if you don't 
have this statistic with you, just get back to us with it. Do 
you have any idea about the percentage of members of, let us 
say MS-13, because that is in the news lately, might be here 
illegally?
    Mr. Mueller. I do not. I would have to get back to you. But 
it is fairly--well, I would really have to get back to you on 
that. I don't want to----
    Mr. Forbes. We have had testimony that it could be between 
60 percent and 80 percent. But if you could just see what your 
statistics and get back.
    Mr. Mueller. Will do.
    Mr. Forbes. Thank you, Mr. Director.
    And, Mr. Chairman, I yield back.
    Mr. Conyers. Thank you very much, Mr. Forbes.
    The Chair is pleased to recognize the gentleman from 
Tennessee, Mr. Steve Cohen.
    Mr. Cohen. Thank you, Mr. Chairman.
    I know we have gone over, two or three times, this fact 
that General Ashcroft was in the hospital. But I am curious. 
Mr. Comey said that he called you, and you called your agents 
and said that Mr. Comey was not to be removed from the room.
    Why did you feel that there might be an attempt to remove 
him from the room?
    Mr. Mueller. It was based on my conversation with Mr. 
Comey, in which he indicated he had a concern that he would not 
be participating in discussions in which he felt he should be 
participating as the Acting Attorney General.
    Mr. Cohen. And were there FBI agents at the room protecting 
General Ashcroft?
    Mr. Mueller. Yes. He had a detail of FBI agents throughout 
his tenure.
    Mr. Cohen. All right. And so, he was concerned that Mr. 
Card and Mr. Gonzales, or Judge Gonzales, were not going to 
include him in the conversation. Is that correct?
    Mr. Mueller. All I can tell you is what I learned from him.
    Mr. Cohen. So he believed that.
    Mr. Mueller. Yes.
    Mr. Cohen. Why did you rush there?
    Mr. Mueller. He requested that I be there to determine what 
went on. You would have to ask Mr. Comey why he had me there. I 
did go at his request. He was the Attorney General at the time.
    Mr. Cohen. So you went there, and when you were there, he 
said at one point that you had a brief and memorable 
conversation--a brief, memorable exchange with the Attorney 
General. How memorable was that?
    Mr. Mueller. I had a conversation with him. I couldn't 
recite to you word for word what that conversation was. I do 
remember him being there.
    Mr. Cohen. Just a memorable conversation----
    Mr. Mueller. It was a conversation, yes.
    Mr. Cohen. What was the gist of it, sir?
    Mr. Mueller. I guess it covered very generally what had 
happened the moments before.
    Mr. Cohen. And what had happened the moments before?
    Mr. Mueller. Well, again, I resist getting into the 
conversations, the specifics of conversations I had, because I 
do think the Attorney General then, the Attorney General now, 
and others are entitled to keep those conversations between 
themselves.
    Mr. Cohen. They may be entitled to, but are you entitled 
to?
    And he is no longer the Attorney General, so at this point, 
he is not the Attorney General. I am asking you to tell us what 
the conversation was. I don't think there is a privilege.
    Mr. Mueller. Excuse me just 1 second.
    Mr. Cohen. Sidebar.
    Mr. Mueller. The discussion was that there had been a prior 
discussion about an NSA program and that the Attorney General 
deferred to Mr. Comey as the person to make whatever decision 
was to be made.
    Mr. Cohen. He had confidence in Mr. Comey, I take it.
    Mr. Mueller. Yes.
    Mr. Cohen. Okay. At some point or another, I think you told 
maybe Mr. Watt that you felt that there were problems with some 
of the operations there, the wiretaps.
    Mr. Mueller. At a point in time, in conversations with Mr. 
Comey, I had understood that the Department of Justice had some 
concerns about the legality of an NSA program. That affected 
the FBI in the sense that we received pieces of information 
from the NSA.
    My purpose was to determine that whatever we did as the 
Bureau in handling that was done according to the directive and 
the appropriate directive of the Department of Justice.
    So my concern was to assure that whatever activity we 
undertook as a result of the information we received was done 
appropriately and legally. At some point in time, he expressed 
concern about the legality of it.
    Mr. Cohen. And because of that concern, at some point did 
you express to Mr. Watt, I believe that was correct, earlier, 
that you considered resignation?
    Mr. Mueller. I don't believe I expressed that. I did not 
dispute what Mr. Comey had said. But, again, in this area, I 
would say that I should not get into the conversations I had 
with individuals.
    Mr. Cohen. Well, this wouldn't be a conversation. I go back 
to Mr. Comey's testimony to the Senate--was about resignations. 
And Mr. Schumer asked, ``Was one of those people that might 
have resigned the Director?'' And he said, ``I believe so. You 
would have to ask him, but I believe so.''
    So I am not asking you about a conversation with Mr. Comey, 
I am asking you, was he correct? Or better yet, just were you 
that person?
    Mr. Mueller. I was that person to whom he refers, yes.
    Mr. Cohen. And were you considering resigning? You don't 
have to relay the conversation, this is just your own mind----
    Mr. Mueller. Understand why I cannot say that I do not 
dispute what Mr. Comey says, because Mr. Comey says ask Mr. 
Mueller. I will tell you that I don't believe that it is 
appropriate of me to get into conversations that I have had 
with principals on that issue.
    Mr. Cohen. And I don't want a conversation. I want what is 
in your psyche. Did you consider it yourself? That is not a 
conversation, that is a state of mind.
    Mr. Mueller. Well, to the extent that I followed through on 
the state of mind, then it is a conversation. Again, I would 
resist getting into that conversation.
    Mr. Cohen. My time is almost up. If I could have 30 more 
seconds, Mr. Chairman? And I would just like to ask this.
    You made a comment about some task forces doing a great job 
in reducing crime in New York and Los Angeles. I am from 
Memphis. We have a serious crime problem there. Is there any 
plan to have any task forces there, street task forces, or 
additional personnel to help us with our crime problem?
    Mr. Mueller. I am quite confident we have at least one, if 
not more, safe streets task forces in Tennessee, in 
particularly in Memphis. And I will get back to you on that.
    Mr. Cohen. No matter how many it is, I want one more. 
[Laughter.]
    And I want to compliment you on your Tennessee--whatever it 
was called--that got some public officials. That was good work 
that you all did.
    Mr. Mueller. Thank you. But if we go along with your 
request, I have a number of seats up here that would probably 
be making the same request. Always happy to accommodate with 
more resources.
    Mr. Cohen. Memphis is a great city that needs help.
    Thank you, Mr. Chairman.
    Mr. Conyers. Mr. Franks is now recognized for the usual 
amount of time.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you, Director Mueller, for being here. I know 
that a lot of people have good ideas about how things should be 
done, but the guy that has to turn these good ideas into 
reality has always got the biggest challenge. And I appreciate 
you so much for kind of standing there between the malevolent 
and the innocent, as you do. And I know it is a tremendous 
responsibility.
    Director Mueller, I have said many times I think that the 
jihadist ideology that we face is the most dangerous ideology 
that we have dealt with in the Nation's is history. And I know 
that half the problem is knowing where the dangers are coming 
from.
    If we knew where every terrorist exactly was today, we 
could probably solve this problem in a month. But knowing where 
they are is critical, and I understand that that is one of your 
biggest challenges.
    That said, I have also believed that the President has the 
constitutional authority to--you know, we have given him the 
job to hunt down, ferret out, and kill terrorists. And as 
Commander in Chief under the Constitution, he has that 
authority as well.
    It occurs to me, if he has the authority to hunt down, 
ferret out, and kill terrorists, that he also has the authority 
to listen to them on the telephone before he proceeds.
    And I know there has been an incredible amount of 
discussion going around the terrorist surveillance program. But 
given the fact that it is now under FISA, can you tell us, is 
it working? Is it something that is an effective tool, 
notwithstanding the fact that probably every terrorist in the 
galaxy knows about the conversations that we have now?
    Mr. Mueller. Well, I think that probably my answer would 
have to come in some form of classified setting.
    But generally I can say that the leads we have received 
from an NSA program have been helpful in the war on terror, 
yes.
    Mr. Franks. Well, the Administration has recently submitted 
proposals to reform FISA. And do you think that those reforms 
are necessary and that they will help you do your job?
    Mr. Mueller. Yes. And it would help not just the FBI, but 
operating together with NSA, the CIA, the DIA, all of whom, all 
of us share the same responsibility to protect the homeland. 
And what is proposed in the revision of the FISA statute would 
help all of us.
    Mr. Franks. Well, without touching on anything that could 
be of a disadvantage to the country, what do you consider your 
greatest concern, the greatest gap, that you have in terms of 
being able to assess and predict or prevent the terrorist 
challenge that we face in the homeland itself?
    Mr. Mueller. I think we have made substantial strides since 
September 11 in terms of breaking down the walls between the 
various entities in the intelligence community.
    We do a far better job, not only within the United States, 
but ourselves as an intelligence community--and I consider us 
an intelligence community--working together with our 
counterparts overseas.
    The gaps come, I believe, in--and it is gaps that, I 
believe, that my counterparts at the CIA or ODNI would also 
focus upon. And that is the threats of terrorists having the 
opportunity to train, to plan, to coordinate in a sanctuary 
around the world, whether it be in Waziristan or the Horn of 
Africa or elsewhere. And we cannot let that happen.
    Secondly, it is important to understand that al-Qaida is 
intent on attacking in the United States and finding ways to 
infiltrate individuals in the United States, often through 
countries that do not have the same stringent controls that we 
have at the borders.
    And those are the biggest concerns, I think, to the 
intelligence community as a whole, in terms of the threat that 
we face from al-Qaida from outside.
    Internally, I think we have done a very good job in 
building up our Joint Terrorism Task Forces and enlisting the 
cooperation and input and assistance and expertise of State and 
local law enforcement.
    We have to remain vigilant. We have to remain on guard. And 
as we get further away from September 11, my greatest concern 
is that we become complacent and that we do not pick up on that 
which would alert us to the possibility of a group in the 
United States who are going to undertake an attack.
    And lastly, I would say, as I have iterated before, that 
advances in communications, the advances in technology, are 
putting us behind the curve in our ability to identify and to 
intercept communications on those that would do us harm.
    And so the statutory changes are necessary, but also the 
funding to keep us on the cutting edge of technology so that we 
can intercept individuals' communications who wish to do us 
harm requires both--not just both, but the Administration, 
Congress, as well as the various telecommunication carriers 
working together to try to fill that gap.
    Mr. Franks. Well, thank you, Mr. Chairman. The light is 
red.
    Mr. Conyers. You are more than welcome.
    The Chair is pleased to welcome a recent addition to the 
Committee, Ms. Betty Sutton of Ohio.
    Ms. Sutton. I thank the Chairman.
    Director Mueller, thank you for being here to shed some 
light on the Bureau's operations. There are so many topics, and 
I share my colleagues' wishes that you return often so we can 
delve into a lot of them deeper.
    At this moment, I would just like to talk to you a little 
bit about something we haven't discussed: the whistleblower 
protections.
    We have had some problems in the Bureau and actually they 
reflect upon some of the facets, the consequences that Mr. 
Delahunt, the distinguished gentleman, points out, and it 
emphasizes the importance that we have proper whistleblower 
protection, not just because governmental employees need to 
have that safeguard, but it is also a matter of ensuing that 
our national security and the integrity of the agency is 
intact.
    I know that you have given personal assurances in the past 
that you were going to take action to ensure that 
whistleblowers would be protected, but we know that there has 
been a culture within the FBI through some years where that 
just hasn't been the case.
    So I would like to, just for a moment, go through a couple 
of those instances, and then you can share with me how things 
have changed so that their plight would have changed and 
outcomes would be different.
    In 2001, Coleen Rowley claims that she was blocked at every 
turn from pursuing her concerns about 9/11 co-conspirator 
Moussaoui. In a statement you issued in response to that case, 
you stated that there is no room for the types of problems and 
attitudes that could inhibit our efforts.
    In 2002--you are familiar with John Roberts' case. He blew 
the whistle on several senior FBI officials, all of whom were 
subsequently promoted, and some of whom received bonuses.
    And of course, the Inspector General subsequently issued a 
report endorsing John Roberts' findings of wrongdoing within 
the agency and concluded that the FBI suffered, and still 
suffers from a strong perception that a double standard exists 
within the FBI with regard to the treatment of senior officials 
versus lower-level employees. And of course, he was humiliated 
because of coming forward with evidence of wrongdoing.
    And we are all familiar with Sibel Edmonds, a former 
translator with the FBI, who did work for the counterterrorism 
program, who was fired after reporting serious problems in the 
Bureau's translation services department. And of course, when 
she sought recourse, she was completely blocked, after the 
Bureau invoked the State secrets privilege.
    So my question to you is, what have you done, specifically, 
to make sure that moving forward--not redress in those cases, 
but moving forward--that these things shall not happen and the 
chilling effect that this culture produces and the consequences 
beyond that are no longer being felt?
    Mr. Mueller. Well, initially, I had an outside panel come 
in and look at how we were handling OPR, how we were handling 
our response to incidents of misconduct, including those that 
would be set out by whistleblowers. And we have changed our 
procedures.
    Every year, at least every year, I sent out statements 
about, ``I will not put up with retaliation for persons who 
bring to our attention that which should be brought to our 
attention.''
    Whenever that occurs, it is immediately referred to the 
Inspector General so the Inspector General can do an 
independent investigation. And I have followed the 
recommendations of the Inspector General as to what steps 
should be taken when retaliation has been found, all the way up 
to the SES level.
    So I believe, both through statements as well as actions, 
the message has gone out that we will not put up with 
retaliation for those who bring to our attention those matters 
that should be brought to our attention.
    Ms. Sutton. Well, could you be more specific in the changes 
that have been implemented?
    Mr. Mueller. I can get back to you on specifically, but I 
think the biggest change is the ability and putting in place 
the mechanisms to ensure an independent investigation of 
allegations of retaliation for whistle-blower activities, and 
our willingness to follow up immediately with the results of 
the independent investigation which has been done by the 
Inspector General.
    Ms. Sutton. Okay, Director. But let us say that that fails 
and we have a situation like Sibel Edmonds. How does she deal 
with the invocation of the State secrets privilege? How does 
she have any recourse?
    Mr. Mueller. Well, I can't get into the rationale behind 
asserting the State secrets privilege in that particular case. 
It is a matter that was sealed by the court.
    But in that case as well, the case was investigated 
independently, and actions that were necessary to be taken as a 
result of that investigation, as to individuals in the FBI, 
have been taken.
    Ms. Sutton. Mr. Chairman, if I just may--but with respect 
to somebody facing the same situation, they would face the same 
outcome. Is that correct?
    Mr. Mueller. It depends on the circumstances of the case.
    Ms. Sutton. Okay, thank you.
    Mr. Conyers. Before I recognize Judge Gohmert, could you 
yield just for one very brief comment from Bill Delahunt? Thank 
you very much.
    Mr. Gohmert. Is that going to be part of my time, or are we 
just yielding----
    Mr. Delahunt. Well, I hope so, Mr. Gohmert. [Laughter.]
    I appreciate your yielding.
    Just a quick question, Director. I would direct your 
attention to the FBI presence, early on, at the base in 
Guantanamo. There were a number of reports indicating that the 
Bureau expressed its concerns about interrogation methods.
    Can you just tell us when those concerns were expressed to 
the appropriate agencies?
    Mr. Mueller. It would depend on particular concerns. In the 
wake of what occurred in Iraq, we undertook a review of those 
concerns. And in the months subsequent to that, Abu Ghraib, we 
had sent to the military what information we had with regard to 
specific concerns and specific incidents, as opposed to 
generalized concerns as to the type of interrogation techniques 
that were being used, and those techniques had changed over a 
period of time.
    Mr. Delahunt. Thank you.
    Mr. Conyers. Thank you.
    Judge Gohmert?
    Mr. Gohmert. Thank you. And, Mr. Chairman, for the record, 
I guess I am the other other prosecutor from 30 years ago.
    But anyway--and I do want to applaud the tone of this 
hearing. Director Mueller, I don't know if you have seen some 
of the hearings from other administrative officials, but 
sometimes voices have been raised, yelling has occurred, 
accusations flying.
    And I can't help but wonder if maybe people had heard about 
that story of the guy calling the FBI office, wanting--demanded 
to talk to somebody in authority, getting them, telling them 
his name, just blowing hard about how--all the things evil and 
wrong with the FBI and then finishing by saying, ``and I demand 
to know, do you have a file on me?''
    And they responded, ``Well, we sure do now.'' [Laughter.]
    So I don't know if that is why the tone is down like it is. 
[Laughter.]
    But in any event, seriously, I do believe this probably is 
the most difficult time in our Nation's history, since the War 
of 1812, to protect our homeland. And you have been serving 
during that time.
    And I know you care every bit as deeply about the safety 
and future of our country as I do. I know that. And I know 
people here all have that concern. It doesn't mean we can't 
have disagreements on how we go about securing that safety.
    Many of us fought and pushed to make sure that the Justice 
Department had the tools they needed in the PATRIOT Act. I 
wanted sunsets on things to be sure we had accountability in 
future Administrations, and we got some, to some extent.
    But I would like to go back to something that, apparently, 
you had wanted to address early on, and brought up, and that 
is--back, right after the NSL disclosure and the abuses by the 
Inspector General's report, there was a press conference in 
which I understood you to say, I should have made sure that the 
people in the field working on these NSLs had the experience 
and training they needed not to abuse the process.
    And frankly, I agree with that. And I do believe that the 
5-year up-or-out policy has been one of the things that has 
been an impediment to having that experience in training, where 
we have numerous experienced, well-trained people.
    And I applaud your efforts. I love when people have 
innovative ideas about how to proceed with management, but 
giving incentives to rise to the top, as you had indicated, 
giving individuals a chance to move to the top or seeking to 
move up the career ladder, I applaud that, except this isn't 
the Army. And I know you know that.
    But it takes time to develop those relationships, to allow 
a joint task force to work between the law enforcement.
    I have seen it, for the last 30 years, very personally. It 
takes time to develop respect and trust and credibility and a 
good working relationship, not only with task forces, with 
confidential informants. And actually, it helps to have years 
of experience.
    When I first got out of law school and became a prosecutor, 
I would not have agreed to this, but I see, in hindsight, I 
needed that D.A. looking over my shoulder because I was 
aggressive; I was competitive. And it is important not to lose 
sight of the fact that justice is the end result.
    And I am curious. Do you know how many experienced FBI 
agents have chosen not to move up after 5 years, but to move 
out or down?
    Mr. Mueller. I do not know that. I would have to get you 
the specific figures.
    And let me tell you, if I might respond, that it was one of 
the more difficult decisions I had to make, because you had to 
balance the scales. I think the program is beneficial to the 
institution as a whole, in terms----
    Mr. Gohmert. And that goes without saying. I know you 
wouldn't have put it in place if you didn't.
    Mr. Mueller. And I absolutely acknowledge we have lost, 
through retirement, some very, very experienced agents----
    Mr. Gohmert. Who wouldn't have retired otherwise?
    Mr. Mueller. Who would not have retired otherwise. And we 
have had--I understood this was going to be a consequence. We 
also have had agents step down who are very good supervisors, 
and my hope and expectation is those that are taking their 
place are very experienced as well, and build up that 
experience during the time.
    And we have seen the results of increased movement through 
the upper ranks, and I have had a number of ASACs, Assistant 
Special Agents in Charge, come up to me and say, ``I wouldn't 
have moved absent this policy. I hated it. I thought it would 
never go into effect but now I am ASAC and I actually have 
benefited from it.''
    Let me say one other thing, if I could, in regard to these 
individuals who have been supervisors, who have been and are 
the backbone of the Bureau. I am supportive of pension 
retention, additional funds to provide pension retention.
    Mr. Gohmert. Okay, well, the pension retention idea goes 
beyond my scope. I am concerned about the NSLs and those kind 
of things, and we can get into that later. But my time is so 
short.
    Mr. Delahunt had mentioned earlier that, you know, it is 
not just the judiciary that protects us. With my background, I 
thought that would. I thought judiciary protection was 
adequate.
    And then you start to seeing the abuses J. Edgar Hoover 
had, and you start realizing there is some information that is 
gleaned never intended to be introduced in court. And when you 
see that, you realize judicial protection is not enough. We do 
need all the checks and balances, including oversight from the 
Congress.
    And so I appreciate your willingness to work with us in the 
future, but I also hope it will be done and that you will look 
into efforts and even intimidation when oversight has been 
attempted by people, like when Mike Rogers wanted to talk with 
somebody--former FBI agent from Michigan wanted to talk with 
somebody from the FBI.
    He asked to talk to a supervisor, came back to his office 
for the appointment, and found that his old office had been run 
out, and they said, well, they were having to do a sweep, they 
said, before you could talk.
    And he knew that there was nothing confidential that would 
be discussed, and to try to come into his own office was not 
allowed. He said it looked like, from the reflection when he 
tried to open his own office, that his contents of his office 
were being videotaped, but he couldn't be certain. And he knew, 
as a former FBI agent, he hadn't seen that before.
    But anyway--and then also, after--and I am sure the 
Chairman----
    Mr. Mueller. Congressman, can I respond to that, sir? Just 
to say that I will look into that incident, but we don't do 
that type of thing. I will look into what you are alluding to, 
but we do not.
    Mr. Gohmert. I appreciate your saying that, but I really 
don't think Mike Rogers lied to me, and so I would not say he 
lied about that.
    But then also, right after--some people felt like the raid 
on William Jefferson's office and people that were concerned 
about that were defending William Jefferson. They weren't.
    There was a concern here in this body that there was an 
intimidation moving forward and that, by raiding his office, it 
wasn't about William Jefferson because, as I understand, those 
documents may have already been secured by other means but, 
nonetheless, that it--and this may not have been your sense at 
all, but from this side, it appeared that there was a lot of 
intimidation going on.
    And then when Dennis Hastert proposed objections or posed 
objections, then it was leaked by someone in Justice that he 
was under investigation, and that is why he was concerned. And 
then he demanded to know, ``Am I really a target?'' And the 
official answer was, ``No, you are not,'' and then the next day 
it was in the national press that two people had acknowledged, 
yes, they said that as the official answer, but it really 
wasn't.
    And then--I never heard this. Somebody told me--one of the 
other Members of Congress, so I don't know, and I wanted to ask 
you directly--that that same week with all this back and forth 
going on and the concerns about the power struggles between the 
branches, that you had made a statement that you may need to 
add 400 people to investigate corruption in Washington, which, 
if it were said, would actually sound like more intimidation.
    And I don't know. I never heard it, couldn't find that it 
was written. Did you ever say anything like that?
    Mr. Mueller. No, sir, I did not.
    Mr. Gohmert. Okay, thank you.
    Mr. Mueller. And I will tell you that the search of 
Congress was done out of a great deal of effort, a great deal 
of reflection at the Department of Justice, and in the White 
House. It certainly was no way to intimidate.
    It was done in the belief that, as part of an ongoing 
investigation, records were necessary to that investigation and 
I can assure you that the last thing on anybody's mind was 
intending to intimidate Congress. It was just to do our job as 
we saw in pursuing that investigation.
    Mr. Gohmert. No, I am just saying that was an appearance, 
and do you know whether or not----
    Mr. Conyers. The gentleman's time is almost over.
    Mr. Gohmert. This will be my final question.
    Do you know whether or not copies of those documents had 
already been secured and were secured, perhaps, by the Ethics 
Committee here?
    Mr. Mueller. We did not believe that to be the case.
    Mr. Gohmert. You do not believe, but you do not----
    Mr. Mueller. Do not believe that to be the case.
    Mr. Gohmert [continuing]. Know for sure?
    Mr. Mueller. I would have to go look, but I do not believe 
that to be the case at all.
    Mr. Gohmert. All right, thank you.
    And I do appreciate the Chairman's flexibility.
    And, Mr. Mueller, I do thank you for coming up here and 
visiting with you. I think this helps us to have a better 
relationship. Thank you.
    Mr. Mueller. Thank you, sir.
    Mr. Conyers. The Chair recognizes yet another prosecutor, 
the gentleman from Alabama, Mr. Artur Davis.
    Mr. Davis. Thank you, Chairman Conyers.
    Mr. Mueller, I didn't know that my friend from Texas was 
going to be the first witness to beat you up today. That is 
news to those of us on this side.
    Let me, in the time that I have, go back to something that 
we have obviously talked about a lot today, and it is the 
circumstances around the March 10 visit from the Attorney 
General to then-White House counsel Gonzales' office to Mr. 
Ashcroft, then the Attorney General.
    And I will preface it by saying that I know you feel that 
we have plowed over this ground a lot today. We are doing it 
for an obvious reason. There have been serious questions raised 
about whether the current Attorney General was candid and 
truthful in his testimony at the United States Senate. And I 
know that you, if you had an opinion of that, would not venture 
it to us.
    But it is important and we have some obligation to try to 
elucidate facts around as much as we can. So in that spirit, 
let me try to fill in some of gaps that some of my colleagues 
may have left today.
    What did you understand John Ashcroft's condition to be on 
March 10, 2004?
    Mr. Mueller. He had gone through a difficult operation and 
was being closely monitored in the hospital.
    Mr. Davis. Had you been in touch with him in the interim 
between March 10 and his operation?
    Mr. Mueller. No. The operation preceding March 10?
    Mr. Davis. Yes, that is right. That is right.
    Mr. Mueller. No, I had not. I had not.
    Mr. Davis. Did you understand him to be in a condition to 
receive visitors on these serious matters?
    Mr. Mueller. I did not, no.
    Mr. Davis. Had you felt anything was pressing enough for 
you to get in touch with him during that timeframe?
    Mr. Mueller. No.
    Mr. Davis. Were you surprised when you received the phone 
call from Mr. Comey indicating that there was going to be this 
visit to Mr. Ashcroft by Mr. Gonzales and Mr. Card?
    Mr. Mueller. It was out of the ordinary.
    Mr. Davis. And was one of the reasons it was out of the 
ordinary because you didn't understand Mr. Ashcroft to be in a 
condition to receive visitors on serious matters?
    Mr. Mueller. No. It was a request from Mr. Comey that was 
out of the ordinary.
    Mr. Davis. What was out of the ordinary?
    Mr. Mueller. To be requested to come to the hospital at 
that particular time, early in the evening.
    Mr. Davis. And I think you have testified, or there has 
been testimony from Mr. Comey, that he asked you to have a 
conversation with FBI agents and to instruct them not to remove 
him from the room. Is that essentially accurate testimony on 
Mr. Comey's part?
    Mr. Mueller. I have no dispute with Mr. Comey as in that 
regard. My own recollection is somewhat uninformed.
    Mr. Davis. Well, that certainly strikes me as unusual. You 
are the FBI Director. A senior official calls you and says, 
``Make sure that I am not evicted from the room,'' and I am 
sure that must have struck you as being an unusual request, 
didn't it?
    Mr. Mueller. Yes.
    Mr. Davis. Did you take notes and memorialize your 
conversation with Mr. Comey, at that point?
    Mr. Mueller. No, at that point, I did not.
    Mr. Davis. At some point, did you memorialize your 
conversations regarding this visit with Mr. Comey?
    Mr. Mueller. I may have, yes.
    Mr. Davis. Do you still have those notes?
    Mr. Mueller. Yes.
    Mr. Davis. And are they available to the Committee if the 
Committee was to ask for them?
    Mr. Mueller. I would have to get back to you on that.
    Mr. Davis. Can you think of a reason or a privilege that 
would prevent the Committee from receiving these notes?
    Mr. Mueller. Deliberative, but I would have to get back to 
you on that.
    Mr. Davis. Well, but as we sit here, can you think of any 
privilege that would preclude the Committee?
    Mr. Mueller. Deliberative. Deliberative.
    Mr. Davis. Okay. That is your answer.
    Let me move forward. I think you have indicated that you 
did not encounter Mr. Gonzales or Mr. Card at the hospital. Is 
that right?
    Mr. Mueller. Correct.
    Mr. Davis. But you did speak with Mr. Ashcroft after the 
conversation that he had with Mr. Card and Mr. Gonzales. Is 
that right?
    Mr. Mueller. I did.
    Mr. Davis. Did you make any notes regarding your 
conversation with Mr. Ashcroft?
    Mr. Mueller. Yes.
    Mr. Davis. And do you still have those notes in your 
possession?
    Mr. Mueller. Yes.
    Mr. Davis. Can you think of any reason why those notes 
should not be disclosed to the Committee?
    Mr. Mueller. The same response that I gave before in 
response to your earlier question, deliberative.
    Mr. Davis. Now--this is an important question--tell me why 
you decided to make notes of your conversation with Mr. 
Ashcroft?
    Mr. Mueller. It was out of the ordinary.
    Mr. Davis. What was out of the ordinary, Mr. Mueller?
    Mr. Mueller. Being asked to go to the hospital and be 
present at that time.
    Mr. Davis. Did you share those notes with anyone in the 
Administration?
    Mr. Mueller. No.
    Mr. Davis. Who have you shared them with prior to today?
    Mr. Mueller. My counsel.
    Mr. Davis. Counsel----
    Mr. Mueller. Office of General Counsel.
    Mr. Davis. Okay. Is that the only individual, Office of 
General Counsel?
    Mr. Mueller. Yes. Well, there may have been persons in my 
immediate staff, but----
    Mr. Davis. Have you made any other notes or memorandum 
regarding the March 10 visit that you have characterized as 
unusual?
    Mr. Mueller. No.
    Mr. Davis. Do you know if any notes or memorandum were made 
regarding the visit itself? I understand you didn't make them 
as you weren't there, but regarding the visit by Mr. Card and 
Mr. Gonzales to Mr. Ashcroft, do you know if there was any 
notetaker present.
    Mr. Mueller. I do not know.
    Mr. Davis. I am sorry. Did you finish your answer? I am 
sorry.
    Mr. Mueller. I was going to anticipate your next question 
is I have not seen any such notes.
    Mr. Davis. Okay, and----
    Mr. Conyers. I hate to tell the gentleman this, but with 
two other Members and the vote on, we are now really----
    Mr. Davis. If you would just indulge me 10 seconds, Mr. 
Chairman, I would ask the Committee to take note of Mr. 
Mueller's very candid statement to us that he does have notes 
regarding this very important conversation, and I would ask the 
Senate to certainly be aware of it.
    And I would certainly ask this Committee and our colleagues 
in the Senate to make a formal inquiry to obtain those thanks
    Thank you for being candid, Mr. Mueller.
    Mr. Conyers. Thank you very much.
    The Chair recognizes the gentlelady from Florida, Debbie 
Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Director Mueller, I am going to change the subject and ask 
some questions related to the Internet and the ICAC task 
forces.
    As you know, the Internet has facilitated an explosion of 
child exploitation. And Department of Justice officials 
testified before the Energy and Commerce Committee in the last 
Congress that there are hundreds of thousands of individuals 
trafficking in child pornography in the United States.
    Everyone that I have talked to--from Mark Lunsford in 
Florida who is Jessica Lunsford's father, Marc Klaas, Polly 
Klaas's father in California and a number of other parents who 
have formed the Surviving Parents Coalition, to the National 
Coalition to Protect Children--everyone tells me that this 
problem is only getting worse and not better.
    And let me be clear. These are images and video of children 
being sexually abused, including depictions of rape and sexual 
penetration. These are crime scene photos.
    A 2005 study by the Department of Justice determined that 
83 percent of child pornography possessors have images as young 
as 6, while another 19 percent of possessors had images of 
infants and toddlers.
    Flint Waters, who is the director of the Wyoming Internet 
Crimes Against Children task force, ICAC, and who is widely 
recognized as the Nation's top investigator, recently examined 
one of 15 networks where peer-to-peer file sharing exchanges 
occur.
    By extrapolating local cases nationwide, he estimates 
conservatively that there are 485,000 known individuals--
485,000 known individuals--engaging in trafficking child 
pornography in the United States. That is half a million people 
right here in the U.S. trading these criminal imagines online 
and spreading them around the world.
    The Wyoming ICAC learned that there have been more than 1.2 
million unique Internet protocol addresses that have engaged in 
child pornography tracking since 2004--1.2 million I.P. 
addresses that we know for a fact are trading in criminal child 
pornography.
    Do you know, Director Mueller, what percentage of these 
cases are presently being investigated by the FBI or other 
branches of Federal law enforcement? I will, in the interest of 
time, answer it for you, because I know. It is 2 percent--2 
percent.
    Now, that figure alone is appalling, but when you consider 
one more statistic that is all the more chilling, we know that 
30 percent of the offenders identified by the ICAC databases 
are typically associated with local victims. These are children 
who are being violated from within their daily circle of trust.
    That would mean that there are 145,000 offenders exploiting 
children in their local areas who could be arrested by local 
law enforcement right now, if law enforcement established 
different priorities, or asked for the funds that they needed 
to eradicate this problem.
    Director Mueller, do you know how many FBI agents are 
dedicated to white-collar crime? I will answer that one for 
you, too: 2,342 agents--2,342 agents.
    And do you know how many agents are dedicated to child 
exploitation? Two hundred and forty-two--242--for child 
exploitation; 2,342 for white-collar crime.
    In the interest of time, I will speed my testimony. But I 
am sponsoring legislation which will also be sponsored by 
Senator Biden, that will authorize $1 billion that would build 
the largest law enforcement effort dedicated to the protection 
of children.
    I am really not sure--and what I would like you to respond 
to--is why the FBI has not made child exploitation a bigger 
priority, and why have you not asked for more help from this 
Congress?
    Mr. Mueller. I can tell you that child exploitation is a 
substantial priority. Our Innocent Images undertaking has grown 
over the years, even though we have had other priorities such 
as counterterrorism and counterintelligence.
    To the extend that I can obtain additional resources--and 
we have put in, over the years, for additional resources to the 
extent that I can obtain additional resources to address child 
pornography and support the ICACs, I, of course, would be 
willing to do so.
    I do believe the ICACs around the country are--the 
mechanism that leverages our capability in working with State 
and local law enforcement to address this problem. You can give 
us a tremendous number of resources, but they would be 
inadequate to address this problem alone.
    And, again, I share your concern. I share your desire to 
utilize everything we have at the Federal level to address this 
problem. Again, it is a question of trying to maintain those 
resources we have and augment them when there are other 
competing priorities.
    Ms. Wasserman Schultz. But I just want to share with you 
that I have a deep concern about the FBI and the Department of 
Justice's priorities when you have 2,342 white-collar criminal 
investigators, and only 242 investigators for child 
exploitation.
    And I would hope that the FBI and that you would commit to 
working with me and Senator Biden and the other Members that 
are deeply concerned about reordering the priorities of the 
Department of Justice and the FBI, to make sure we can go after 
the people who are really harming the most vulnerable 
population--and that is our children.
    Mr. Mueller. I would be happy to work with you.
    Ms. Wasserman Schultz. Thank you very much.
    Mr. Conyers. Thank you.
    The Chair recognizes our last Member to ask questions, the 
gentleman from Minnesota, Mr. Keith Ellison.
    Mr. Ellison. Mr. Director, thanks for being here today.
    In the past several weeks, I have been in a lot of events 
for members of the Muslim and Arab community. And there have 
been several of them where I have seen people from the FBI who 
were there who spoke, who interacted with the community. I 
thought that was a good thing. I want to commend you and 
encourage you to continue to do that.
    Could you talk about other things that the FBI is doing 
right now to try to build better relationships within those 
communities at this time?
    Mr. Mueller. As you have pointed out, we have substantial 
outreach in every one of our 56 field offices. And Special 
Agents in Charge since September 11 have been directed to 
attend mosques, attend dinners, attend congregations of Muslim-
Americans, Arab-Americans, Sikh-Americans in order to share 
basically what we do and our concern not only about the 
contributions of that community to protect the United States 
against another attack, but addressing hate crimes which also 
are a substantial concern in the wake of September 11.
    And we take any allegations of a hate crime against a 
Muslim as extremely serious in undercutting the democracy in 
which we live.
    I meet periodically with the national leaders of the Muslim 
communities. We have established a mechanism whereby when we do 
make an arrest, and it does happen to be Muslims, that we have 
a dialogue immediately so that there is an understanding of 
what supports that arrest, and allowing leaders of the Muslim 
community to explain to the flock what we are doing.
    Part of our outreach is also through citizens' academies in 
which we will have Muslim leaders participate in citizens' 
academies which are several, continuous weeks of, I would say, 
training by the FBI as to what we do and how we do it, the 
constraints under which we do it.
    And I will say almost to a one that the persons who go 
through the citizens' academies come out with a much better 
understanding about what we do, how we do it, and our concerns 
about the civil rights of all populations in the United States. 
Those are just a few of the areas in which we operate.
    I will tell you that the participation in the Muslim 
community, in terms of trying to prevent another terrorist 
attack, from September 11, has been terrific.
    Mr. Ellison. Do you agree, then, that the American-Muslim 
community stands four-square with the American people in 
working to prevent any kind of further extremist violence?
    Mr. Mueller. Absolutely. And the worst thing for the Muslim 
community would be another attack such as September 11. And I 
think members and leaders of the Muslim community recognize 
that.
    Mr. Ellison. Do you think they are doing their good part?
    Mr. Mueller. I do, but there is always more to be done in 
all communities. The need to be vigilant to self-
radicalization, is important. And when you see persons or 
individuals, in whatever community, whom you think present a 
concern, it is important that one take action.
    I am always reminded of the--on the airline flying from 
Paris to Florida, the shoe-bomber. And it was an alert flight 
attendant who fixed on the fact that there was something 
unusual when he was lighting a match, and saved the lives of 
hundreds of people.
    Now, that did not happen to be a Muslim flight attendant 
but, nonetheless, we have had that same type of----
    Mr. Ellison. Forgive me for my interruption. It is just the 
time that makes me have to do that.
    There were recently some arrests in Detroit--Detroit area, 
Dearborn--that may well have been justified. I don't have any 
view on that. But what the residual impact was was that some 
charities were notified by the banks that they were working 
with that their relationship was going to be terminated.
    Are you at all concerned about how third parties out in the 
communities, such as banks and others, might react when it has 
gotten into the public arena that there has been some law 
enforcement activity in a certain community?
    Do you understand what I am getting at?
    Mr. Mueller. Yes, I am concerned. But, on the other hand, 
we have our job to do. When we have the evidence and we have 
the imperative to move ahead, we have to. There will be 
residual effects. I am not saying there will not be. And that 
is of some concern----
    Mr. Ellison. Can the FBI do anything to help mitigate those 
residual effects? I mean, is that something that you regard as 
something that is important in terms of continuing to pursue 
your program to build better, stronger relationships?
    Mr. Mueller. Yes. And the mitigation goes to what I was 
saying before in terms of developing relationships and 
understanding of how the FBI operates--when we do searches, it 
is at the behest of a judge who has approved a search warrant--
so there is greater understanding of the parameters in which we 
operate, as well as our mission and how we undertake it.
    Mr. Ellison. Do you ever send communications to banks or 
any groups like that to say that, ``Look, we haven't found 
anything; these people are--you might not want to take adverse 
action against them because our investigation has not turned up 
anything against them''?
    Mr. Mueller. Generally, we cannot and do not do that, given 
the confidentiality of our investigations. But to the extent 
that we can mitigate such adverse consequences within the 
constraints of what we can do investigatively, we would try to 
do it. Much of it is building up the relationships and the 
rapport.
    Mr. Ellison. Is there anything you could do to remove that 
cloud of suspicion that would inevitably hang over a group 
where there may have been some investigative action that has 
found not be fruitful?
    Mr. Mueller. Well, ultimately, if we take an action, 
generally there is an indictment or some other action. It may 
be a forfeiture action like in which the courts address it. And 
the facts that triggered the enforcement action come through 
and become transparent in the judicial process.
    Mr. Ellison. Yes, but sometimes there is no further action. 
There might be just a couple of guys in black suits and ties 
that knock on the door. That causes a certain amount of fear 
and suspicion. Or maybe there are some search warrants served, 
but then there is no further action after that. The community 
continues to wonder what is up with those guys?
    Mr. Mueller. Well, there is--and, again, it is usually up 
to the U.S. attorney. There is the capability of indicating to 
a defense attorney that the client is no longer either a target 
or subject of an investigation, and that goes generally to--
that kind of letter goes to a defense attorney.
    Mr. Conyers. The gentleman's time has expired.
    It has been a long day, Director Mueller, but it has been a 
very fruitful day.
    We will keep the record open for 5 legislative days for 
questions to go to you and for Members to add additional 
material.
    And we think that this first hearing with the head of the 
FBI is one that will get us together more frequently in the 
future. We thank you for your patience and cooperation with the 
Committee.
    Mr. Mueller. Thank you, sir.
    Mr. Conyers. And, with that, the hearing is adjourned.
    [Whereupon, at 4:13 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
                       Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

 Prepared Statement of the Honorable Betty Sutton, a Representative in 
Congress from the State of Ohio, and Member, Committee on the Judiciary
    Thank you, Mr. Chairman, and thank you for convening this hearing. 
And thank you, Director Mueller, for being here today.
    This opportunity to examine the operations of the Federal Bureau of 
Investigation is a welcome one. As the nation's premiere domestic law 
enforcement, counter-espionage and counter-terrorism agency, the FBI 
stands at the forefront of some of the most critical issues facing the 
country.
    The job that the agency does, and the way it carries out that job, 
are questions of vital importance to all Americans.
    Director Mueller, as you mention in your prepared testimony, the 
September 11th terrorist attacks brought about fundamental changes in 
our country, both in our individual attitudes and in refocusing the 
priorities of the federal government.
    The questions before us today are how has that change been managed, 
and how do we ensure that we strike the right balance between the 
demands of this new world of security challenges and our long-standing 
commitment to maintaining the protections guaranteed to all Americans 
in our Constitution.
    It is clear to me from the Department of Justice Inspector 
General's report in March of this year that the correct balance was not 
struck in the FBI's use of National Security Letters (NSL)--and I would 
like to thank you, Director Mueller, for the acknowledgement of that in 
your prepared testimony.
    Many officials who come to testify before our Congressional 
committees lack the candor and the willingness to admit things under 
their jurisdiction need a second look and a better system of 
accountability.
    I hope your agency implements improvements in the NSL program so 
that it meets the standards of accountability and integrity that the 
American people deserve from their government. The first system of NSLs 
was fatally flawed.
    I know that several of my colleagues will want to discuss the NSL 
issue with you today. There are two other things under the jurisdiction 
of the FBI that are also cause for grave concern, which I would like to 
call to the committee's attention today.
    First, I understand that the demands on your agency are greater 
than they were before, but I would ask that you take a hard look at how 
you are formulating your agency's priorities--especially in the 
priority given to assistance for state and local law enforcement.
    The Administration, in my opinion, has treated the distribution of 
resources in the area of domestic law enforcement as a zero-sum game.
    While the emphasis given to counterterrorism is good, important and 
vital, this does not mean that the FBI's traditional responsibilities 
have gone away.
    I don't pretend to know the solution to this problem of balancing 
priorities, but it is clear that many of our neighborhoods have become 
less safe in recent years.
    Murders are up 3.4% nationwide--the largest increase since 1998. 
The lack of funding, and decrease in FBI violent crime investigations, 
is having a palpable effect on our communities.
    There are never enough resources to achieve everything we would 
like, but when state and local law enforcement agencies have been 
stretched so thin that many Americans no longer feel safe walking in 
their own neighborhoods, it's time to re-consider our priorities.
    Second, your submitted testimony mentions that you have tripled the 
number of linguists and acknowledges that the need for experts who can 
help our government in fighting terrorism is especially critical.
    Given that, I remain deeply concerned about your agency's efforts 
to protect those seeking to ensure the integrity of your agency's 
operations.
    I was a strong supporter of the Whistleblower Protection 
Enhancement Act of 2007, which passed in the House earlier this year.
    I supported it because cases like Sibel Edmonds's make it clear 
that the Whistleblower Protection Act is falling short of its purpose. 
I am not only concerned that government employees are not being 
protected, I am concerned that their dismissals came at the expense of 
our national security.
    I know you have spoken out strongly on this subject, and that you 
made personal assurances that you would not tolerate retaliation 
against whistleblowers within your agency. But I would encourage you to 
be vigilant in examining the culture within the FBI to ensure these 
abuses will not be tolerated.
    Thank you, Mr. Chairman, and thank you, Director Mueller, for being 
here today.
    Mr. Chairman, I yield back the balance of my time.

                                <F-dash>

 Post-Hearing Questions posed by the Honorable John Conyers, Jr., and 
  the Honorable Luis V. Guiterrez to the Honorable Robert S. Mueller, 
             III, Director, Federal Bureau of Investigation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

     Letter from Richard C. Powers, Assistant Director, Office of 
 Congressional Affairs, U.S. Department of Justice, Federal Bureau of 
                 Investigation, dated November 13, 2007

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

     Letter from Richard C. Powers, Assistant Director, Office of 
 Congressional Affairs, U.S. Department of Justice, Federal Bureau of 
                 Investigation, dated December 19, 2007

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
